<html>
<title> - THE FUTURE OF FEMA'S GRANT PROGRAMS DIRECTORATE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





            THE FUTURE OF FEMA'S GRANT PROGRAMS DIRECTORATE

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS,
                       PREPAREDNESS, AND RESPONSE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 29, 2010

                               __________

                           Serial No. 111-72

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
64-698 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
    Columbia                         Michael T. McCaul, Texas
Zoe Lofgren, California              Charles W. Dent, Pennsylvania
Sheila Jackson Lee, Texas            Gus M. Bilirakis, Florida
Henry Cuellar, Texas                 Paul C. Broun, Georgia
Christopher P. Carney, Pennsylvania  Candice S. Miller, Michigan
Yvette D. Clarke, New York           Pete Olson, Texas
Laura Richardson, California         Anh ``Joseph'' Cao, Louisiana
Ann Kirkpatrick, Arizona             Steve Austria, Ohio
Bill Pascrell, Jr., New Jersey       Tom Graves, Georgia
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Dina Titus, Nevada
William L. Owens, New York
Vacancy
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS, AND RESPONSE

                Laura Richardson, California, Chairwoman
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
    Columbia                         Pete Olson, Texas
Henry Cuellar, Texas                 Anh ``Joseph'' Cao, Louisiana
Bill Pascrell, Jr., New Jersey       Michael T. McCaul, Texas
Emmanuel Cleaver, Missouri           Peter T. King, New York (ex 
Dina Titus, Nevada                       officio)
William L. Owens, New York
Bennie G. Thompson, Mississippi (ex 
    officio)
                      Stephen Vina, Staff Director
                          Ryan Caldwell, Clerk
               Amanda Halpern, Minority Subcommittee Lead













                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Laura Richardson, a Representative in Congress From 
  the State of California, and Chairwoman, Subcommittee on 
  Emergency Communications, Preparedness, and Response...........     1
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Subcommittee on Emergency 
  Communications, Preparedness, and Response.....................     2

                               Witnesses

Ms. Elizabeth M. Harman, Assistant Administrator, Grant Programs 
  Directorate, Federal Emergency Management Agency, Department of 
  Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Ms. Anne L. Richards, Assistant Inspector General for Audits, 
  Office of the Inspector General, Department of Homeland 
  Security:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Mr. Alan Patalano, Fire Chief, Long Beach Fire Department, Long 
  Beach, California:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20
Ms. MaryAnn Tierney, Deputy Managing Director, Office of 
  Emergency Management, City of Philadelphia:
  Oral Statement.................................................    23
  Prepared Statement.............................................    25

                                Appendix

Questions From Chairwoman Laura Richardson of California.........    43

 
            THE FUTURE OF FEMA'S GRANT PROGRAMS DIRECTORATE

                              ----------                              


                         Tuesday, June 29, 2010

             U.S. House of Representatives,
                    Committee on Homeland Security,
   Subcommittee on Emergency Communications, Preparedness, 
                                              and Response,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 311, Cannon House Office Building, Hon. Laura Richardson 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Richardson, Cuellar, Pascrell, 
Cleaver, Rogers, and McCaul.
    Also present: Representative Austria.
    Ms. Richardson. The Subcommittee on Emergency 
Communications, Preparedness, and Response will come to order.
    The subcommittee is meeting today to receive testimony on 
``The Future of FEMA's Grant Programs Directorate.''
    I will now recognize myself for an opening statement.
    Good morning. I want to welcome our panel of witnesses and 
thank them for testifying on today's topic.
    GPD, also known as the Grant Programs Directorate, is now 
the Department's one-stop shop for administering more than $4 
billion annually in homeland security and emergency management 
grants. GPD plays a vital role in helping our State and local 
partners build the capabilities necessary to prepare for, 
protect against, and respond to, and recover from acts of 
terrorism and other disasters.
    We are especially looking forward today to hearing from 
GPD's new assistant administrator, Ms. Elizabeth Harman, about 
her priorities for the office. Ms. Harman has inherited several 
significant management challenges at GPD, including high 
turnover and low morale.
    These challenges have been made more complex by 
Administrator Fugate's focus on empowering the FEMA regions. I 
remain supportive of giving the regions greater operational 
responsibility when responding to disasters. However, FEMA 
officials in the field are much better equipped to respond to 
those situations than we are.
    However, non-disaster grant management is a uniquely 
different function than a disaster response. It is not clear to 
me how handing control over the grants to the regions will 
improve FEMA's grant management function. Adding FEMA regions 
to the mix of actors threatens to overly complicate critical 
infrastructure grant programs.
    Finally, Congress created GPD in part to ensure that DHS--
and excuse all these acronyms, to people who might be here for 
the first time--was consistently applying its grants policies 
and rules. It will be very difficult for 10 FEMA regions to 
consistently interpret grant policies. Accordingly, there is a 
central question that we hope Ms. Harman will address this 
morning: What problem is FEMA trying to solve by decentralizing 
the grant management programs to the regions?
    Beyond the questions of regionalization, we want to hear 
from all witnesses their ideas for improving homeland security 
grant programs. The inspector general recently issued a report 
where he identified legislative, interagency, and State-level 
barriers that impede maximizing the value of DHS grants. We 
would like to understand how FEMA is addressing the IG's 
recommendations and learn more about what impediments this 
subcommittee ought to consider.
    One grant challenge, that has recently been renewed and has 
gotten a lot of attention, has to do with spending the grant 
awards. For example, almost 50 percent of the fiscal year 2007 
homeland security grant program--funds have not been spent. 
That number jumps to 78 percent for port security grants, which 
is of great concern to me in my district. That is an 
astonishing number when you consider the massive security needs 
at our Nation's ports.
    In my district in California, the ports of Long Beach and 
Los Angeles handle 30 percent of the entire Nation's shipping 
imports. The economic impact of a nuclear attack on the Port of 
Long Beach could initially exceed $1 trillion. Therefore, it is 
vital that we have the funds to put the necessary security in 
place.
    There are many reasons for these draw-down numbers, some of 
which the GPD can control and others that simply reflect the 
time it takes State and locals to move through the grant 
lifecycle. Nevertheless, the fact still remains: When Federal 
dollars are not being spent to fill critical security gaps, our 
communities--Americans--remain vulnerable.
    I am very pleased to see Chief Patalano, from my district 
in Long Beach, here with us today to speak on these issues. As 
fire chief, you know first-hand the importance of these grants 
and what they do for the city of Long Beach, so I look forward 
to your testimony.
    I would also like to welcome Ms. Tierney from Philadelphia, 
who I know brings a wealth of knowledge to emergency 
management.
    I invite you both to tell us where the grant process can be 
improved and how we can cut through the red tape so that our 
first responders have the resources they need.
    In conclusion, the subcommittee's underlying goal this 
morning is to help FEMA improve the management of its grant 
programs. The Congress, FEMA, and grantees all have a role to 
play in reaching this goal, and I look forward to a productive 
dialogue with all the witnesses this morning.
    The Chairwoman now recognizes the Ranking Member of the 
subcommittee, the gentleman from Alabama, Mr. Rogers, for an 
opening statement.
    Mr. Rogers. Thank you, Madam Chairwoman. Thank you for 
calling this hearing.
    I want to thank the witnesses for being here and taking the 
time to prepare for it. I know it is inconvenient, but it is 
very helpful to us to be able to draw on your expertise, so 
thank you for your time and commitment.
    This hearing is being held to look at FEMA's Grant Programs 
Directorate and the overall efficacy of the Department of 
Homeland Security's grant programs. This is the first time that 
Ms. Harman has testified before the committee since she became 
the new assistant administrator for grants at FEMA. I want to 
welcome her and thank her for her service, both in her current 
capacity and as a former firefighter and paramedic.
    DHS grants are essential to increasing our Nation's level 
of preparedness, and we must ensure that these programs are 
managed in an effective manner.
    I would first like to commend FEMA for the outreach they do 
with the State and local recipients of preparedness grants. 
Gathering insight and recommendations from States and 
localities is critical in helping GPD become more effective as 
the 3-year-old directorate continues to evolve. I encourage 
FEMA to continue emphasizing that level of stakeholder 
outreach.
    While FEMA has made progress in certain areas, the agency 
needs to improve its ability to manage the grant application 
and review process, conduct oversight of awards, and measure 
the effectiveness of grants in bolstering preparedness and 
response capabilities across the Nation.
    I am concerned that FEMA has still not developed tools to 
measure the Nation's overall preparedness or assess the 
achievement and effectiveness of its grant programs, especially 
since the Post-Katrina Emergency Management Reform Act of 2006 
and the 9/11 Act, both of which required such performance 
metrics to be developed. While we recognize that it is not a 
simple task, developing these metrics is crucial to assessing 
the impact that these programs are having in protecting local 
communities.
    In addition, there seems to be a lack of clear vision as to 
how to integrate FEMA grant management with the recent push 
toward regionalization. Even with grant management functions 
largely centralized at headquarters, FEMA has not always evenly 
applied grant policies. Without a strong implementation plan 
and adequate resources, the continued delegation of 
responsibility to FEMA's 10 regional offices could lead to 
inconsistency in grant polices as well as a strain on resources 
in the regions as they try to carry out their normal duties.
    Last, I am concerned about the amount of time it takes for 
FEMA to conduct reviews and release funds under certain grant 
programs once those funds have been awarded. A 2009 GAO report 
found that mass transit security grant dollars were unavailable 
for up to a year or more, in some cases, after they have been 
awarded due to TSA and FEMA's internal review processes. These 
delays are unacceptable. I am interested in looking at what 
steps can be taken to address these funding delays and mitigate 
the impact to State and local communities.
    I want to thank our witnesses again.
    Madam Chairwoman, if you don't mind, I would like to ask 
unanimous consent that Congressman Austria be able to sit with 
us on the panel and question the witnesses.
    Ms. Richardson. Without objection.
    Mr. Rogers. Thank you.
    With that, I would yield back.
    Ms. Richardson. Other Members of the subcommittee are 
reminded that, under committee rules, opening statements may by 
submitted for the record.
    I welcome our panel of witnesses today.
    I want to let you know that at approximately 10:30 we might 
have votes. If we all do a good job, hopefully we can get 
through your initial statements. Upon our return after votes, 
we can go into questions and hopefully minimize your time 
today.
    Our first witness is the Honorable Elizabeth Harman, 
assistant administrator for the Grant Programs Directorate. Her 
job consists of overseeing the management of more than 50 grant 
and financial assistance programs and representing 
approximately $4 billion in non-disaster grant funding 
annually. Ms. Harman comes to FEMA with over 20 years of 
experience in the emergency management community and it is my 
belief that her appointment was supported by both our Ranking 
Member and Chair.
    Our second witness, Ms. Anne Richards, is the assistant 
inspector general for audits at the Department of Homeland 
Security. Previously, Ms. Richards was the assistant inspector 
general for audits at the Department of the Interior and spent 
5 years as the regional audit manager for the Central Region 
office, located in Denver, from 1984 to 1999, where Ms. 
Richards also served in a number of positions with the U.S. 
Army Audit Agency.
    Our third witness, Chief Alan Patalano, is the fire chief 
of Long Beach Fire Department in Long Beach, California. Our 
chief served as the deputy chief for the past 8 years and has 
worked with the city of Long Beach for more than 20 years. He 
is a member of Los Angeles/Long Beach UASI Working Group, which 
develops projects and allocates homeland security grant funds 
to area agencies in support of regional domestic preparedness 
and, may I add, that the program is in Tier 1 in some of the 
most critical risk assessment areas.
    Our final witness, Ms. MaryAnn Tierney, is the deputy 
managing director for the Office of Emergency Management in the 
city of Philadelphia. Since coming to Philadelphia in 2006, Ms. 
Tierney has overseen a transformation of the city's emergency 
preparedness program, focusing on developing operational and 
emergency plans, conducting training and exercises, and 
building partnerships with the community. Ms. Tierney spent 
over 7 years with the New York City Office of Emergency 
Management and has extensive experience coordinating large, 
complex emergency response operations.
    We are pleased to have all of you present with us today and 
greatly appreciate your testimony.
    Without objection, the witnesses' full statements will be 
inserted into the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes, beginning with Ms. Harman.

  STATEMENT OF ELIZABETH M. HARMAN, ASSISTANT ADMINISTRATOR, 
   GRANT PROGRAMS DIRECTORATE, FEDERAL EMERGENCY MANAGEMENT 
            AGENCY, DEPARTMENT OF HOMELAND SECURITY

    Ms. Harman. Thank you.
    Chairwoman Richardson, Ranking Member Rogers, and Members 
of the committee, my name is Elizabeth Harman, and I serve as 
the assistant administrator for the Federal Emergency 
Management Agency's Grant Programs Directorate, or GPD. On 
behalf of Administrator Fugate, it is a privilege to appear 
before you today.
    Madam Chairwoman, I have served as GPD's assistant 
administrator since March 2010. I have spent much of these last 
several months becoming better acquainted with GPD, with its 
people, and how it works on a day-to-day basis.
    GPD's role is one of great responsibility. Its mission is 
to ensure that, through strategic use of Federal funding, our 
Nation is well-prepared to respond to and mitigate all-hazard 
events. Moreover, GPD must ensure that FEMA's grant programs 
are administered responsibly, economically, and that each grant 
dollar improves our Nation's capabilities and provides a strong 
return on our investment.
    The Post-Katrina Emergency Management Reform Act 
centralized most of the Department of Homeland Security's grant 
programs under GPD's administration and oversight. This 
centralization allowed for a more integrated, coordinated, and 
transparent system of grant management.
    As part of this transition, FEMA continues to build the 
capacity to administer a new, different, and much larger grant 
portfolio program. This includes improving our systems for 
collecting and managing and reporting data, improving how we 
operate on a daily basis, including a thorough review of our 
most basic functions, such as program and financial monitoring, 
and maintaining a highly skilled, motivated, and dedicated 
staff.
    Since March, I have reviewed our processes, our operating 
procedures, and how GPD staff interacts internally and 
externally with our State and local partners and stakeholders. 
The goal is to ensure that GPD grant administration procedures 
are effective and responsible.
    While we are still in the preliminary phases of this 
review, I believe that, with the support we have from FEMA and 
DHS leadership, we can greatly improve our grant process. As 
part of our efforts to improve GPD, we must ensure that we have 
the capabilities in place to help us succeed.
    One of our most valuable assets is an exceptional staff. 
While decreased staffing levels in recent months has been a 
challenge, we are moving quickly to meet GPD's staffing 
requirements. Within the first 2 months of my appointment here 
at GPD, 98 percent of our vacancies were announced. We fully 
expect to have all vacant positions filled within the coming 
months.
    Another critical component of GPD's success is its ability 
to ensure that Federal grant dollars have been accounted for 
and that those grant dollars are meeting critical security 
needs across the country. We at FEMA and DHS are committed to 
doing this and are working closely with the Preparedness Task 
Force created by the DHS fiscal year 2010 Appropriations Act.
    We are also exploring new ways and systems to manage and 
report data we collect from grantees. We are committed to 
creating a more efficient and accurate system of collecting and 
reporting information. We are currently discussing system 
requirements and are in the process of determining funding 
needs and timelines for implementation.
    Last, GPD must be able to carry out this mission within a 
new and evolving FEMA structure. Administrator Fugate strongly 
believes that emergency management organizations are most 
responsive and effective when the authority to make operational 
decisions is delegated to those command levels in the field 
with boots on the ground.
    FEMA is putting in place the structure in which 
headquarters is responsible for the rules and tools of programs 
we manage, while the regions are becoming increasingly 
responsible for implementing these programs in the field. The 
responsibility of headquarters is to prescribe and develop 
systems in support of our National policy. Personnel in the 
region's field are responsible for the actual policy 
implementation as well as preparing for, responding to, 
recovering from, and mitigating all hazards.
    I recognize there has been much discussion over the impact 
of empowering the regions as part of our strategy. Grant 
regionalization is in an early stage; it is a work in progress. 
We are currently assessing how FEMA grant programs will be 
structured and administered and how accompanying roles and 
responsibilities will be defined. Those determinations will be 
made on a careful study of each grant program's requirements 
after we have a clear understanding of the benefits derived 
from having the program administered by the regions.
    In fiscal year 2010, FEMA assigned full responsibility for 
the implementation of six homeland security grant programs to 
the regions. Since moving these six programs to the regions, 
FEMA has provided the opportunity to step back and assess the 
regionalization of these programs, study the grant process and 
the various parts of the grant cycle, and to better understand 
how roles and responsibilities may best be shared between 
headquarters and regional staff.
    This has provided the opportunity for detailed discussions 
between headquarters and regional staff to better understand 
the opportunities for improvement, establish corrective 
actions, and identify best practices. I cannot emphasize enough 
how critical the inclusion of our State and local partners will 
be in our examination of regionalization and regional 
empowerment.
    Our decisions on regionalization will be driven by the same 
key concerns that drive all FEMA and GPD decisions: How do we 
better prepare our Nation for a natural disaster or terrorist 
attack?
    In conclusion, I would like to add a personal note. As a 
former volunteer and paid firefighter and paramedic, I have 
seen first-hand how these homeland security grants are being 
spent. I understand how important Federal funding is for 
preparing our communities, building capabilities at the local 
level, and ensuring the safety of our citizens and of our first 
responders.
    My experience as a first responder gives me insight into 
the importance of including frontline responders of all 
disciplines into the design and planning of these grant 
programs. I am committed to the inclusion of our stakeholders 
in decision-making. The transparency of our processes and our 
ability to work closely with our State and local partners is 
critical to the success of GPD's mission.
    Madam Chairwoman, this concludes my statement. I am happy 
to respond to any questions that you may have, Congressman 
Rogers, and any other Members as well. Thank you very much.
    [The statement of Ms. Harman follows:]
               Prepared Statement of Elizabeth M. Harman
                             June 29, 2010
    Chairwoman Richardson, Ranking Member Rogers, and Members of the 
committee, my name is Elizabeth Harman and I serve as the assistant 
administrator for the Federal Emergency Management Agency's (FEMA) 
Grant Programs Directorate (GPD). On behalf of Administrator Craig 
Fugate, it is a privilege to appear before you today to discuss GPD's 
present and its future.
    Madam Chairwoman, I have served as GPD's assistant administrator 
since March 2010. I have spent much of these last several months 
becoming better acquainted with GPD, with its people and how it works 
on a day-to-day basis.
    GPD's role is one of great responsibility. Its mission is to ensure 
that through the strategic use of Federal funding, our Nation is well 
prepared to respond to and mitigate all-hazards. Moreover, GPD must 
ensure that FEMA's grant programs are administered responsibly and 
economically, and that each grant dollar improves our Nation's 
capabilities and provides a strong return on our investment.
    The Post Katrina Emergency Management Reform Act (PKEMRA) 
centralized most of the Department of Homeland Security's (DHS) grant 
programs under GPD's administration and oversight, allowing for a more 
integrated and coordinated system of grant management. Under PKEMRA, 
GPD became the one-stop-shop for grants management, providing credible 
leadership of FEMA's grant programs, a more transparent processes, and 
collaborative partnerships with our stakeholders. GPD currently 
administers 52 distinct disaster and non-disaster grant programs. Each 
year, we award between 6,000 and 7,000 individual grants, totaling $7 
to $10 billion each year.
    FEMA is continuing to build capacity as we administer a new, 
different, and much larger portfolio of grant programs. This includes 
improving our systems for collecting, managing, and reporting data, 
improving how we operate on a daily basis--including a thorough review 
of our most basic functions such as program and financial monitoring--
and maintaining a highly skilled, motivated, and dedicated staff.
    Also critical to GPD's ability to achieve its mission is being able 
to show how each grant dollar improves our Nation's capabilities and 
provides a strong return on our investment. We must work with our 
partners at the State and local level to provide both the outputs and 
outcomes of grants, underscoring how our investments are increasing 
preparedness.
    Lastly Madam Chairwoman, GPD must be able to carry out this mission 
within a new and evolving FEMA structure. This new structure, a key 
goal of Administrator Fugate, will not just empower the FEMA Regions, 
but more actively involve them in the day-to-day administration of 
FEMA's programs.
    These then, are the four key principles for GPD:
    (1) To administer FEMA's grant programs responsibly and 
        economically.
    (2) To build and sustain the internal capabilities to ensure 
        success.
    (3) To show how each grant dollar improves our Nation's 
        capabilities and provides a strong return on our investment.
    (4) To carry out our mission within a new and evolving FEMA 
        structure.
    Since March, I have dedicated a good deal of time and energy into 
looking at how GPD does business. I have reviewed our processes, our 
operating procedures, and how GPD staff interacts internally and 
externally with our customers--our State and local partners and 
stakeholders. The goal is to ensure that GPD's grant administration 
procedures are effective and responsible--beginning the process with 
the development of grant guidance and concluding with the close-out of 
individual grants. While we are still in the preliminary phases of this 
review, I believe that with the support we have from FEMA and DHS 
leadership, we can greatly improve our grant process and how we do 
business.
    In our efforts to improve GPD operations on a day-to-day basis, we 
must ensure that we have the proper capabilities in place. One of our 
most valuable assets is an exceptional staff with the skills, 
knowledge, and motivation, to succeed. There is no question that GPD is 
comprised of dedicated professionals with years of experience in the 
planning, execution, management, and monitoring of Federal grant 
programs.
    While decreased staffing levels in recent months have been a 
challenge, with the support of FEMA and DHS leadership, we are moving 
quickly to meet GPD's staffing requirements. We are actively recruiting 
additional Federal employees: We currently have 48 advertised staff 
position announcements and a new senior management position that will 
be announced shortly. Once these positions are filled within the next 
few months, GPD's staffing level will be at its full authorized level 
of 192.
    Another critical component of GPD's success is its ability to 
ensure that Federal grant dollars have been accounted for, and that 
those grant dollars are meeting critical security needs across the 
country. Given the size of this investment, it is important for GPD, as 
stewards of the taxpayers' money, to assess what these dollars have 
bought, and what our investment has returned. At the end of the day, we 
need to be able to show how each grant dollar improves our Nation's 
capabilities and provides a strong return on our investment.
    Madam Chairwoman, as this committee is aware, those of us at FEMA 
and at DHS are committed to doing this. Intuitively we can say that we 
are better prepared today than we have been in the past. We can point 
to such things as the amount and type of equipment that has been 
purchased. We can look at the improvements in physical security that we 
have made and the improvements in planning and training that we have 
put in place, and we conclude that we are better prepared. However, we 
are and will continue to do even more. Through the development and 
assessment of metrics, connecting the dollars we've spent to the 
results that our grant money has achieved, we can better evaluate our 
preparedness.
    Recognizing that it is important to take a comprehensive look at 
all our past efforts, the DHS fiscal year 2010 Appropriations Act 
instructed FEMA's National Preparedness Directorate (NPD), in 
cooperation with the Department's Office of Intergovernmental Affairs, 
to create and lead an effort to help us better understand preparedness 
and how best to invest preparedness dollars. With the creation of the 
local, State, Tribal, and Federal Preparedness Task Force (Task Force), 
FEMA and DHS are undertaking a comprehensive look at these questions. 
The report and recommendations of the Task Force are due later this 
year and will help move us closer to understanding how prepared we are 
and how best to dedicate preparedness resources.
    Further, as part of this effort, we are exploring new ways and 
systems to manage and report the data we collect from our grantees. GPD 
currently maintains several systems that were created at different 
times and collect different types of information. Too often, pulling 
and organizing data from these different systems is cumbersome and 
time-consuming. We are committed to creating a more efficient and 
accurate system of collecting and reporting information. We are 
currently discussing system requirements with both FEMA and DHS 
leadership and are in the process of determining time lines for 
implementation and funding requirements. Once these changes are 
implemented, they will provide us and the American people with a 
clearer understanding of how our grant dollars are being used and what 
results are being achieved. It will also give us a more effective tool 
to monitor the spending decisions made by grant recipients.
    Lastly Madam Chairwoman, GPD must be able to carry out this mission 
within a new and evolving FEMA structure. Administrator Fugate strongly 
believes that emergency management organizations are most responsive 
and effective when the authority to make operational decisions is 
delegated to those command levels in the field with boots on the 
ground. FEMA is putting in place a structure in which Headquarters is 
responsible for the ``rules and tools'' of the programs we manage, 
while the regions are becoming increasingly responsible for 
implementing those programs in the field. The responsibility of 
headquarters is to prescribe and develop systems in support of our 
National policy. Personnel in the regions and the field are responsible 
for the actual policy implementation as well as preparing for, 
responding to, recovering from, and mitigating all hazards.
    I recognize that there has been much discussion over the impact of 
empowering the regions as part of our strategy. Allow me to address 
this. Grant regionalization (that is, empowering the regions by 
providing them with increased responsibilities in the management and 
administration of the homeland security grant programs) is still in an 
early stage. It is a work in progress. We are currently assessing how 
FEMA's grant programs will be structured and administered, and how 
accompanying roles and responsibilities will be defined. These 
determinations will be made based on a careful study of each grant 
program's requirements, and after we have a clear understanding of the 
benefits derived from having the program administered by the regions.
    In fiscal year 2010, FEMA assigned full responsibility for the 
implementation of six homeland security grant programs to the regions: 
The Emergency Management Performance Grant Program, the Emergency 
Operations Center Grant Program, the Regional Catastrophic Planning 
Grant Program, the Citizen Corps Grant Program, the Metropolitan 
Medical Response Systems Grant Program, and the Drivers License 
Security Grant Program.
    These programs have traditionally been characterized by high levels 
of local involvement in their development and administration through 
the use of local working groups, community councils, and State and 
local agencies. For example, there is the Citizen Corps Grant Programs' 
reliance on State and local Citizen Corps Councils to determine uses of 
funds and to establish local program goals and objectives. Similarly, 
the Metropolitan Medical Response Systems (MMRS) Grant Program relies 
on local MMRS Working Groups to determine local program activities. The 
Emergency Management Performance Grant Program is also directly 
administered by State and local emergency management agencies.
    Moving these six programs to the regions provides FEMA the 
opportunity to step back and assess the success of grant 
regionalization, to study the grant process and the various parts of 
the grant cycle, and to better understand how roles and 
responsibilities may be best shared between headquarters and regional 
staffs.
    Moving these six programs to the regions also will provide the 
opportunity for detailed discussions between headquarters and regional 
staff to better understand opportunities for improvement, establish 
corrective actions, and identify best practices. This process will 
allow us to pilot the regionalization of these six programs with our 
State and local partners.
    I also cannot emphasize enough how critical the inclusion of our 
State and local partners will be to our examination of regionalization 
and regional empowerment. At the end of the day, our decisions on 
regionalization will be driven by the same key concern that drives all 
FEMA and GPD decisions--how do we better prepare our Nation for a 
natural disaster or terrorist attack.
    Madam Chairwoman, in conclusion I would like to add a personal 
note. As a former volunteer and paid fire fighter and paramedic, I have 
seen first-hand how these homeland security grants are spent. I 
understand how important Federal funding is for preparing our 
communities, building capabilities at the local level, and ensuring the 
safety of our citizens and our first responders. My experience as a 
fire fighter and paramedic gives me insight into the importance of 
including front-line responders of all disciplines in the design and 
planning of these grant programs. I am committed to keeping our 
stakeholders informed throughout the decision-making process. The 
inclusion of our stakeholders, the transparency of our processes, and 
our ability to work closely with our State and local partners is 
critical to the success of GPD's mission.
    Madam Chairwoman, this concludes my statement. I am happy to 
respond to any questions that you, Congressman Rogers and the other 
Members of the committee may have.

    Ms. Richardson. Thank you for your testimony.
    I now recognize Ms. Richards to summarize her statement for 
5 minutes.

STATEMENT OF ANNE L. RICHARDS, ASSISTANT INSPECTOR GENERAL FOR 
AUDITS, OFFICE OF THE INSPECTOR GENERAL, DEPARTMENT OF HOMELAND 
                            SECURITY

    Ms. Richards. Good morning, Madam Chairwoman and Members of 
the subcommittee. I am Anne Richards. I am the assistant 
inspector general for audits for the Department of Homeland 
Security. Thank you for the opportunity to testify at this 
hearing on the future of FEMA's Grant Programs Directorate.
    Today I will discuss four barriers that impact the 
effectiveness and efficiency of FEMA's preparedness grant 
programs. I will also briefly discuss our audit work in the 
areas of grants management and oversight in State and urban-
area grants.
    The efficient and effective operation of preparedness grant 
programs is affected by several barriers within the Department. 
These include the way grant guidance is developed, the 
requirements of various grant applications, how those 
applications are reviewed, and the division of program 
management among multiple offices.
    First, guidance. FEMA issues separate annual guidance for 
each grant program. This practice complicates coordination and 
creates burdensome requirements for both FEMA and grantees. In 
addition, FEMA has established requirements that vary across 
programs, regardless of the similarities of the grant program, 
making it difficult for States to have a streamlined planning 
process that is consistent across all grant programs.
    Concerning the application process, States have to apply 
separately for each grant, even where activities overlap. Grant 
programs also have different application formats, requiring 
applicants to prepare and submit unique information for each 
program regardless of the similarities of the proposed 
activities.
    Regarding application review, FEMA's ability to identify 
duplicative or redundant funding requests is limited because 
grant applications are reviewed one program at a time. FEMA's 
review panels do not compare applications to other grant 
proposals submitted by the same grantee under different grant 
programs that fund similar activities.
    Another barrier is that the grant program management is 
split among several offices, creating organizational barriers 
to coordination. Although the Grant Programs Directorate is 
responsible for managing DHS preparedness grants, program-
specific management is split among different directorates 
within DHS. FEMA has the lead for managing the review and 
approval processes and coordinating grant guidance, while other 
organizations within DHS identify the funding priorities, 
provide guidance, and participate in the review process.
    When these subject-matter experts reside outside of FEMA or 
when different organizations within FEMA are responsible for 
managing preparedness grants, the agency's ability to 
coordinate across grant programs is impeded.
    On a positive note, FEMA has taken steps to coordinate 
application and investment reviews for four grants comprising 
the Homeland Security Grant Program. This practice has the 
potential for limiting duplication among the grant programs and 
ensuring that the States' highest priorities are considered.
    There are other barriers to effective and efficient 
preparedness grant programs outside of FEMA's control, such as 
legislative barriers and barriers at the State and local 
levels, but I will not discuss those today.
    I would also like to briefly summarize the audit work we 
conducted in the areas of grants management and oversight and 
State and urban-area grants.
    In the grants management and oversight area, we reported 
that FEMA did not consistently and comprehensively execute its 
two major oversight activities: Financial and program 
monitoring. This occurred, in part, because FEMA did not have 
sufficient grants management staff and also because FEMA did 
not have comprehensive policies, procedures, and plans for 
oversight and monitoring.
    Congress has sought to address the unresolved human capital 
issues by mandating that FEMA identify its human capital needs 
and develop a plan to address those needs. FEMA has formed an 
Intra-Agency Grants Program Task Force that has developed a 
FEMA grant strategy to drive future enhancements in grant 
policies, procedures, systems, and processes.
    Finally, I would like to discuss our audits of State and 
urban-area grants. The States and urban areas we audited in 
2008 and 2009 generally did an efficient and effective job of 
administering the grant program requirements, distributing 
grant funds, and ensuring that all available funds were used.
    However, we identified areas for improvement, with most 
States facing challenges and controls over personal property, 
monitoring and oversight activities, and planning activities, 
such as establishing measurable program goals and objectives. 
Other challenges include questioned costs, complying with 
Federal procurement practices, and financial planning, 
reporting, and support.
    We also identified nine effective tools and practices which 
we recommended be considered for use by other jurisdictions.
    Madam Chairwoman, this concludes my prepared remarks. I 
welcome any questions that you or the Members of the 
subcommittee may have.
    [The statement of Ms. Richards follows:]
                 Prepared Statement of Anne L. Richards
                             June 29, 2010
    Chairwoman Richardson and Members of the subcommittee: Thank you 
for inviting the Office of Inspector General to testify at this hearing 
entitled ``the Future of FEMA's Grant Programs Directorate.''
    My testimony today will address challenges facing the Department, 
and specifically the Federal Emergency Management Agency, in mitigating 
redundancy and duplication among preparedness grant programs. The 
information provided in this testimony is contained in our March 2010 
report ``Efficacy of DHS Grant Programs'' (OIG-10-69), and our March 
2009 report ``Improvements Needed in Federal Emergency Management 
Agency Monitoring of Grantees'' (OIG-09-38). I will also discuss 
challenges facing the States and urban areas as addressed in our 
summary reports issued for fiscal years 2008 and 2009 Annual Report to 
Congress on States' and Urban Areas' Management of Homeland Security 
Grant Programs (OIG-09-17 and OIG-10-31).
                               background
    The Federal Emergency Management Agency (FEMA) coordinates the 
Federal Government's role in preparing for, preventing, mitigating the 
effects of, responding to, and recovering from all natural or manmade 
domestic disasters, including acts of terror. In fiscal year 2008, FEMA 
awarded more than $3 billion to State and local governments; 
territories; Tribal governments; and private, public, profit, and 
nonprofit organizations through preparedness grants and other financial 
assistance programs (referred to collectively as grants). DHS 
preparedness grants are intended to enhance preparedness, protection, 
response, recovery, and mitigation capabilities throughout the Nation 
by funding such items as planning, training, exercises, equipment, 
interoperable communications, and personnel costs.
    Within FEMA, the Grant Programs Directorate is responsible for 
business operations, training, policy, and oversight of all FEMA 
grants. This new directorate was created on April 1, 2007, in response 
to the Post-Katrina Emergency Management Reform Act of 2006, to 
consolidate the operations of all FEMA grants under a single 
organization. The Act consolidated not only grant operations, but also 
preparedness grants that previously had program responsibility residing 
in various DHS organizations.
    The Grant Programs Directorate reviews, negotiates, awards, and 
manages FEMA's preparedness grant portfolio; provides subject matter 
expertise in response to regional office and stakeholder inquiries; 
develops grant guidance and formulates risk methodology to support 
grant allocations; and analyzes investments. This Directorate also 
receives subject matter expertise through collaboration with offices 
within FEMA and other components of DHS.
   comparing and coordinating preparedness grant program applications
    The preparedness grant application process risks being ineffective 
because FEMA does not compare and coordinate grant applications across 
preparedness programs to mitigate potential duplications and 
redundancy. Barriers at the legislative, departmental, and State levels 
impede FEMA's ability to coordinate these programs. Since grant 
programs may have overlapping goals or activities, FEMA risks funding 
potentially duplicative or redundant projects.
Legislative Barriers to Coordination
    Three types of legislative barriers hinder FEMA's ability to 
identify and minimize duplication and redundancy within preparedness 
grants. First, Congress enacts legislation for preparedness grants that 
have similar goals. Second, Congress appropriates funds on an annual 
basis for these grants and in most instances, the legislation mandates 
disparate application and award milestones. Finally, the annual 
appropriation law may contain Congressional earmarks that dedicate 
funds towards specific grant projects, precluding FEMA from 
coordinating grant programs.
    Multiple Grant Programs Have Similar Legislated Goals.--The 13 
grant programs we reviewed during our audit have similar legislated 
goals. At a broad level, these programs provide Federal assistance to 
State and local governments, nonprofit organizations, emergency 
responders, and port and transit authorities to improve homeland 
security and emergency management capabilities. Specifically, the 
legislated goals of these grant programs focus on activities to prepare 
for or respond to acts of terrorism or other disasters.
    For example, States may request funding for planning projects 
through both the Urban Areas Security Initiative and the Regional 
Catastrophic Preparedness Grant Program. While the goals for both 
programs are directed at improving preparedness planning in high-risk 
urban areas, the Regional Catastrophic Preparedness Grant Program is 
focused on all-hazards planning, while the Urban Areas Security 
Initiative is focused on responding to acts of terrorism.
    Disparate Milestones Are Legislatively Established.--Legislation 
also mandates grant application processing and award milestones; 
however, not all grants are set on the same schedule. When grant review 
periods and award dates overlap, FEMA may not have sufficient time to 
compare the numerous applications submitted by each State for similar 
or related projects to prevent duplication. While we are not advocating 
that all applications be due on the same date, we are identifying the 
disparate schedules as a potential barrier to FEMA's ability to 
coordinate related projects.
    To illustrate, Figure 1 reflects the different legislated milestone 
requirements for the Urban Area Security Initiative and the Transit 
Security Grant Program during fiscal year 2008. Both of these programs 
may be used for costs to develop and implement homeland security 
support programs, and adopt on-going DHS National initiatives such as 
enhancing preventive radiological and nuclear detection programs. As 
shown in Figure 1, FEMA must make award decisions for the Transit 
Security Grant Program before completing its review of Urban Areas 
Security Initiative applications, inhibiting coordination of 
potentially related projects. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Congress Earmarks Funds for Specific Purposes.--Annual 
appropriation law may contain Congressional earmarks that fund specific 
grant projects. These earmarks limit FEMA's ability to ensure Federal 
assistance is being provided to fund grant recipients' most urgent 
homeland security and emergency management needs and priorities. They 
also inhibit FEMA's ability for corrective action on potentially 
duplicative investments for grant recipients who received grants 
through normal risk-based application processes for purposes similar to 
the earmarked funds.
Departmental Barriers to Coordination
    In addition to legislative barriers, FEMA faces Department-level 
challenges that impede its ability to coordinate grant applications 
across the many programs. Departmental barriers include:
  <bullet> Interpreting legislation,
  <bullet> Developing grant guidance,
  <bullet> Requiring investment justification details,
  <bullet> Reviewing applications, and
  <bullet> Coordinating with subject matter experts located in separate 
        program offices.
    Grant-Related Legislation Requires Interpretation.--FEMA, or its 
predecessor organizations, created a barrier to coordination in 
establishing separate stand-alone grant programs to accomplish 
Congressional objectives. Typically, once Congress authorizes a grant 
to fund an emerging homeland security or emergency management need, 
FEMA develops a new and separate grant program. While the legislation 
did not direct FEMA to establish a separate program, FEMA interpreted 
the legislation as such. FEMA's development of separate grant programs 
promotes fragmentation and complicates coordination at both the Federal 
and State level.
    Grant Guidance Is Developed for Individual Programs.--Creating 
individual guidance for each grant program deters coordination because 
the individual guidance documents establish a separate identity for 
each program and each grant application will be tailored specifically 
to the guidance. Grant guidance establishes the individuality and 
details the scope of a grant program. The substance of individual grant 
guidance includes identifying funding priorities, describing the 
application and review process, providing the investment justification 
template, and other year-to-year changes. While the FEMA Grant Programs 
Directorate has the main responsibility for issuing grant guidance, the 
directorate coordinates with individual program offices to develop the 
substance of the grant guidance for each individual grant program. With 
the exception of the Homeland Security Grant Program, which combines 
grant guidance for four interrelated grant programs into one guidance 
document, individual grant guidance results in a deterrence to 
coordination because of the number of organizations involved.
    Applications and Investment Justifications Request Different Levels 
of Detail.--Typically, the level of detail in grant applications and 
investment justifications is not sufficient for FEMA to identify 
potential duplication and redundancy. Investment justifications are a 
part of a grant application and provide a template for the applicant to 
describe the proposed project and demonstrate how it addresses 
deficiencies in current capabilities. However, the level of detail on 
each project makes it difficult to identify whether States are applying 
for similar projects under another grant program. The investment 
justification template for the State Homeland Security Program, for 
instance, does not provide grant applicants the ability to provide 
specific details on their proposed projects. The investment template 
covers topics including critical infrastructure, preparedness planning, 
and interoperable communications. It also requests a high-level purpose 
statement, funding plan, and outcomes. Without additional details, FEMA 
cannot readily identify whether similar projects submitted separate 
grant program applications overlap.
    Applications Are Reviewed At the Department Level Without 
Considering Other Grant Programs.--FEMA's ability to determine whether 
the proposed grant application investments contain duplicative or 
redundant requests is impeded when grant applications and investment 
justifications are reviewed one program at a time. After a grant 
application is submitted, a review panel evaluates applications and 
proposed investments. While the panel compares the proposed investments 
to the grant guidance for that program, the panel does not compare 
proposals against applications for other grant programs submitted by 
the same grantee.
    With the availability of funds from numerous individual 
preparedness grant programs for similar purposes, applicants may apply 
for multiple grant programs for the same items to maximize their 
chances to fully fund a project. Of the 13 programs we reviewed, 11 
allow applicants to purchase interoperable communications equipment, 
such as radios. Therefore, it is possible for a single organization 
within a State to receive funding from multiple grant programs for 
similar items. As one example, it is possible for a law enforcement 
organization to build a cache of radios through multiple grant 
programs, as shown in Figure 2 below. As these four programs undergo 
different review processes, FEMA cannot readily identify whether funds 
requested are for similar or overlapping projects.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    FEMA has taken initial steps to coordinate application and 
investment justification reviews for four individual grant programs. 
The Homeland Security Grant Program is comprised of four interconnected 
grant programs: (1) The State Homeland Security Program, (2) Urban 
Areas Security Initiative, (3) Metropolitan Medical Response System, 
and (4) Citizen Corps Program. During the review process, State and 
local peer reviewers evaluate and score applications and investment 
justifications for all four of the individual grant programs in a 
single application submission and review process. However, while State 
and local peer reviewers have the capability to perform an internal 
comparison of grant programs under the Homeland Security Grant Program, 
they do not have access to applications and investment proposals 
submitted in response to other grant programs with similar purposes or 
allowable activities.
    Separate Program Office Responsibilities Hamper Coordination.--
Grant program management split among several offices creates 
organization barriers to coordination. Although the Grant Programs 
Directorate is responsible for managing DHS preparedness grants, 
program-specific management is split among different directorates 
within DHS. FEMA has the lead for managing the review and approval 
processes and coordinating grant guidance, while separate organizations 
within DHS identify the funding priorities, provide guidance input, and 
participate in the review process. While each grant program has a 
guidance document defining the application and review process for the 
individual program, FEMA does not have an overarching policy to outline 
the roles and responsibilities for coordinating applications across 
grant programs.
    When subject matter experts, who define funding priorities and 
review investment justifications, reside outside of FEMA, the agency's 
ability to coordinate across grant programs is impeded. For example, 
the Buffer Zone Protection Program is not coordinated with other grant 
programs at the Department level. This program provides funding to 
secure predesignated critical infrastructure sites, which are 
preselected by the DHS Office of Infrastructure Protection. Once DHS 
selects the sites, local officials work with site owners to develop 
security plans and identify equipment needed to implement the plan. 
Because FEMA does not have a process for ensuring applications are 
coordinated across grant programs, the Office of Infrastructure 
Protection is unable to validate with FEMA whether the applicant had 
requested similar equipment items under other grant programs. While 
FEMA relies on the subject matter expertise that these organizations 
provide, it cannot easily identify duplications in its grant programs 
without an overarching policy outlining roles and responsibilities for 
coordinating applications across grant programs and across the 
different organizations.
State-level Barriers to Coordination
    FEMA encounters barriers at the State level that impede its ability 
to compare and coordinate grant applications and investments across 
preparedness programs. States do not have an overall grant strategy 
that identifies specific projects and their funding sources. 
Additionally, there is not one organization within the State that has 
visibility over all State entities that receive DHS financial 
assistance.
    Not All States Have Overall Grant Strategies.--The three States we 
visited did not have overall, comprehensive grant strategies. The 
States had various preparedness strategies or plans that address target 
capabilities and identify critical goals, objectives, and 
implementation steps. However, the plans did not specifically address 
how the States are using funds from the multiple DHS grants to improve 
homeland security preparedness. A more comprehensive plan could provide 
States a tool to promote coordination across the different grant 
programs which are now planned and accounted for separately.
    State-level Visibility Over All Grant Programs Is Not 
Centralized.--FEMA cannot rely on the States to coordinate all 
preparedness grant applications because grants are awarded to multiple 
organizations within the State. At the three States we visited, none of 
the States had an organization with visibility across all preparedness 
grant programs. Some grants are awarded through State administrative 
agencies while others bypass the State administrative agency and go 
directly to recipients such as port authorities, local fire 
departments, and first responders. The prerogative of each State to 
determine its own organizational structure may or may not coincide with 
the corresponding Federal grant program responsibility. Without the 
State having visibility over all preparedness grants, FEMA cannot rely 
on States to identify duplication and redundancy across DHS grant 
programs.
               efficiency of grant application processes
    FEMA's grant application processes are not efficient because 
application requirements, review processes, and timelines vary among 
the grant programs. These numerous processes and requirements can be 
burdensome on Federal and State resources because this creates 
redundant work for both Federal and State personnel. Therefore, 
coordinating and streamlining these application processes may help 
ensure the most efficient use of limited Federal and State resources.
Inconsistent or Redundant Grant Application Requirements
    FEMA issues separate annual guidance to outline the application 
processes and requirements for each grant program which creates 
burdensome requirements on both FEMA and grantees as the requirements 
differ across grant programs. Additionally, the multiple application 
processes have redundant requirements.
    Grant Requirements for Similar Grant Programs Differ 
Significantly.--Requirements in grant guidance vary across programs, 
regardless of the similarities of the grant program, making it 
difficult for States to have a streamlined planning process that is 
consistent across all grant programs. Differences include program 
priorities and investment justification templates that must be 
followed.
    While considerable potential overlap exists in the activities 
supported by DHS preparedness grant programs, the priorities for these 
programs may differ. For example, the fiscal year 2008 Urban Areas 
Security Initiative, Regional Catastrophic Preparedness Grant Program, 
and Emergency Management Performance Grant Program provide assistance 
to improve preparedness planning processes. However, each program 
focuses on a different priority.
  <bullet> The Urban Areas Security Initiative provides funds to high-
        risk urban areas to build an enhanced and sustainable 
        capability to prevent, protect against, respond to, and recover 
        from acts of terrorism.
  <bullet> The Regional Catastrophic Preparedness Grant Program 
        supports improved and expanded regional collaboration for all 
        hazard and catastrophic events, including high-risk urban areas 
        and surrounding regions. This program focuses on eight National 
        planning scenarios identified by the Federal Government as the 
        most urgent for planning purposes.
  <bullet> The Emergency Management Performance Grant Program also 
        supports State and local all-hazards emergency management 
        programs and encourages applicants to address National planning 
        scenarios in their work plans, but is focused on evacuation 
        planning, logistics and resource management, continuity of 
        operations planning, and recovery planning.
    Since each preparedness planning program focuses on a different 
priority, States have to undertake three separate planning and grant 
application processes to request funding under each program.
    Grant programs also have different investment justification 
templates as part of the application process. This requires applicants 
to prepare investment justifications or documents with unique 
information for each program regardless of the similarities of the 
proposed funding activities. These varied templates and program 
documents may provide consistency for panels reviewing project 
proposals for the individual grant programs, but present an 
administrative burden for grant applicants who must prepare similar 
information in different formats.
    Grant Applications for Similar Programs Incorporate Redundant 
Requirements.--Grant applicants must perform redundant work to apply 
for DHS preparedness grants, which is burdensome and time-consuming. 
The use of the website grants.gov has streamlined the application 
process, but it still requires applicants to prepare and submit 
redundant information if an applicant applies for multiple grants.
    FEMA's grant application process required each State Administrative 
Agency, the designated applicant for 10 of the 13 grant programs 
reviewed, to complete an on-line grant application seven times for the 
10 grant programs. Submitting these similar documents multiple times 
may increase the State Administrative Agency's opportunities for errors 
on these forms. The process for the seven grant programs included 
similar application, financial, and administrative compliance 
requirements.
    FEMA also requires State Administrative Agencies to use two on-line 
systems to complete and file investment justifications for the Homeland 
Security Grant Program. First, the State Administrative Agency must 
complete the State Homeland Security Program and Urban Areas Security 
Initiative investment justifications through the Department's Grant 
Reporting Tool. Upon completion of the investment justifications, the 
State Administrative Agency must submit the official copy of its final 
investment justification through www.grants.gov with the grant 
application. While these on-line tools helped to streamline the 
application processes, they include an inefficient duplication of 
effort for both Federal and State grant administrators.
Review Panels Differ Across Grant Programs
    Grant programs have separate review processes to evaluate funding 
requests for each grant program, which requires FEMA to convene 
multiple review panels to evaluate applications and investment 
justifications. For all programs, FEMA verifies the applicant's 
compliance with administrative and eligibility criteria identified in 
each grant program's application kit. FEMA then sends the eligible 
applications through an investment justification review process to 
evaluate the merits of proposed investments against grant guidance 
criteria. However, FEMA uses various types of reviews to evaluate 
proposed investments. The type of review and participants of the review 
panel are based on the grant program. For the 13 grant programs we 
reviewed, FEMA employed 6 different review processes, composed of 
different personnel such as Federal, State, and local government 
personnel; emergency responders; and members of National associations, 
as shown in the following table.
            Grant Program Review Methodologies
    1. FEMA Review.--FEMA headquarters components and/or regional 
        offices review investments and make award determinations. 
        (Emergency Management Performance Grant Program)
    2. DHS Review.--DHS components outside FEMA, such as the Office of 
        Infrastructure Protection review proposed investments. (Buffer 
        Zone Protection Program Grant)
    3. Peer Review.--A panel of State and local representatives from 
        across the Nation, such as subject matter experts with 
        experience in fire and emergency response, review and score 
        proposed investments. (Homeland Security Grant Program, 
        Assistance to Firefighters Grants)
    4. Federal Review.--A panel of subject matter experts from across 
        DHS, including components within FEMA and outside FEMA such as 
        the DHS Office of Emergency Communications, review proposed 
        investments. (Interoperable Emergency Communications Grant 
        Program)
    5. National Review.--A panel of subject matter experts from across 
        DHS, including FEMA, non-DHS Federal components, or National 
        associations, review proposed investments. (Port Security Grant 
        Program)
    6. Subject Matter Expert Review.--National subject matter experts 
        with experience in law enforcement and emergency response 
        review and score proposed investments. (Commercial Equipment 
        Direct Assistance Program)
    These numerous panels create additional work for FEMA to request 
review panel members from Federal, State, and local organizations, 
depending on the grant program. FEMA must also train the numerous 
panels, provide review materials, oversee the panels, and compile panel 
results. Consolidating panels where grant programs have similar 
purposes or activities would provide a more efficient use of Federal, 
State, and local resources.
Sequencing Existing Grant Application Timelines
    Grant timelines do not promote the most efficient application 
preparation and review because they are not arranged in the most 
optimal sequence. In many cases, the timelines are legislatively 
established and do not allow States the opportunity to logically 
develop investment justifications that address overarching needs or 
define target capabilities while simultaneously focusing on more 
narrowly focused programs. For example, law enforcement organizations 
that provide transit security may receive funding through the Transit 
Security Grant Program. These same organizations may also receive 
funding for law enforcement terrorism prevention-oriented planning, 
training, exercise, and equipment activities through both the State 
Homeland Security Program and the Urban Areas Security Initiative. 
While we have not defined the most optimal sequence for grant programs, 
an organized sequence would increase efficiency at the Federal level by 
allowing grant reviewers to use the outcome from various panels as they 
review their investments and also by reducing the time that States may 
spend developing investment justifications. This would also provide a 
better review at the State level to ensure that redundant projects are 
not duplicated across grant programs.
                            recommendations
    We recognize that legislated requirements can complicate the 
application and review of Federal assistance programs. However, FEMA 
needs to identify alternate ways to improve its grant application and 
review processes operating within currently legislated requirements or 
work with Congress to modify the processes to ensure the most efficient 
and effective use of limited Federal resources.
    We recommended that the Federal Emergency Management Agency:
  <bullet> Identify preparedness grant programs that may overlap or 
        duplicate other programs and ensure the application and review 
        processes for these programs are coordinated to mitigate 
        potential duplication and redundancy.
  <bullet> Document specific agency roles and responsibilities for 
        cross-program coordination of grant application and review 
        processes and ensure internal DHS coordination is in place. 
        This may include establishing memorandums of agreement if roles 
        are outside the Federal Emergency Management Agency.
  <bullet> Work with Congress and State grant administrators to 
        identify opportunities and implement actions to streamline and 
        standardize multiple preparedness grant program application 
        processes.
    The Director of FEMA's Office of Policy and Program Analysis 
provided written comments on a draft of this report. FEMA concurred 
with our recommendations and outlined plans and actions to implement 
our recommendations designed to improve the efficacy of these grant 
programs.
    other challenges in managing the homeland security grant program
    Public Law 110-53, Implementing Recommendations of the 9/11 
Commission Act of 2007, directed the Department of Homeland Security 
Office of Inspector General to review and evaluate the grant management 
and oversight practices of the Federal Emergency Management Agency. 
Improvements are needed in FEMA's grants management and oversight 
infrastructure to ensure effective monitoring of grantees. 
Specifically, FEMA does not consistently and comprehensively execute 
its two major oversight activities, financial and program monitoring. 
This occurs, in part, because FEMA does not have sufficient grants 
management staff. Congress has sought to address these unresolved human 
capital issues by mandating that FEMA conduct an analysis and develop a 
plan of action. In addition, financial and programmatic monitoring 
policies, procedures, and plans are not comprehensive.
    FEMA's financial and programmatic monitoring activities are 
critical parts of an effective grant oversight program. FEMA needs an 
appropriate oversight infrastructure to ensure that all financial and 
programmatic monitoring activities can be accomplished, as specified in 
its monitoring plans. Key components of this infrastructure include 
implementation of a strategic human capital plan and associated 
workforce analysis, adequate staffing, formal training, comprehensive 
policies and procedures, realistic and representative monitoring plans, 
consistent documentation of monitoring activities, and integrated grant 
management systems.
    Effective oversight will ensure that grantees have adequate 
internal controls, grant funds are being used as intended, grant 
programs are carried out as prescribed, and grantees are complying with 
the terms and condition of their grant award agreements.
    FEMA has formed an Intra-Agency Grants Program Task Force that has 
developed a FEMA Grants Strategy to drive future enhancements in grants 
policies, procedures, systems, and processes. The task force has 
identified projects including the development of comprehensive grant 
management monitoring policies and procedures for the FEMA directorates 
with program management and oversight responsibilities.
    Public Law 110-53, Implementing Recommendations of the 9/11 
Commission Act of 2007, also required the Office of Inspector General 
to audit individual States' management of State Homeland Security 
Program and Urban Areas Security Initiatives grants and annually submit 
to Congress a report summarizing the results of these audits. In the 2 
complete years since the law was enacted, the States we audited 
generally did an efficient and effective job of administering the grant 
management program requirements, distributing grant funds, and ensuring 
that all of the available funds were used.
    However, individual audit reports identified areas for improvement, 
with the most States facing challenges in controls over personal 
property, monitoring and oversight activities, and planning activities 
such as establishing measurable program goals and objectives. Other 
challenges included questioned costs, complying with Federal 
procurement practices, and financial planning, reporting, and support. 
We also identified nine effective tools and practices used by five 
States that could be considered for use by other jurisdictions.
    Madam Chairwoman, this concludes my prepared remarks. I welcome any 
questions that you or the Members of the subcommittee may have.

    Ms. Richardson. Thank you for your testimony.
    I now recognize Chief Patalano--I keep butchering your 
name, and I actually know you--to summarize his statement for 5 
minutes.

    STATEMENT OF ALAN PATALANO, FIRE CHIEF, LONG BEACH FIRE 
               DEPARTMENT, LONG BEACH, CALIFORNIA

    Chief Patalano. Good morning, Madam Chairwoman and fellow 
Members of the committee. My name is Alan Patalano, and I am 
the fire chief for the city of Long Beach and a member of the 
LA/Long Beach Tier 1 UASI Working Group. I would like to say 
thank you for holding this meeting.
    Emergency communications, preparedness, and response are 
high priorities for the city of Long Beach and the entire urban 
area, and I know you share these priorities as well. Long Beach 
is a proud member of FEMA Region 9, and we are working hard 
with our cities and the State of California to improve our 
ability to mitigate or prevent a natural or manmade disaster.
    As you are well aware, our local area has very serious 
homeland security threats, including the port complex of Long 
Beach and Los Angeles. Long Beach refineries are responsible 
for one-third of the gasoline west of the Rockies. The port of 
Los Angeles contributes almost $226 billion annually to the 
National economy through trade. The ports of Los Angeles and 
Long Beach handle 30 percent of all U.S. shipping imports.
    Additionally, our region presents unique targets to acts of 
terrorism. As the center of the film and entertainment 
industry, the Southern California region is the face of iconic 
American culture.
    Over the past 4 years, the combined Los Angeles-Long Beach 
region received over $400 million through UASI funds and the 
State Homeland Security Grant Program. These funds have been 
instrumental in increasing the overall capabilities within the 
region.
    Working in collaboration with 30 fire agencies, my 
department has upgraded existing communication capabilities, 
increased our capacity to treat multiple victims, developed 
urban search and rescue capabilities that are available for 
deployment to other areas through our very robust California 
mutual aid system, and implemented a hazardous materials team 
to protect our court complex.
    Our local police department has also benefited from 
homeland security funds. The capabilities of the SWAT team have 
been increased through the purchase of specialized equipment 
and PPE. The region has also improved communications 
interoperability and significantly increased intelligence-
gathering capabilities. In addition, on automated license plate 
recognition system has been implemented that allows for rapid 
identification of suspect vehicles.
    Homeland Security funds have also increased the region's 
capabilities to distribute medicine during a significant 
disaster, improved our local lab's ability to detect and 
analyze chemical and biological threats, and improve securities 
at the many airports within the region, including Long Beach 
and LAX.
    Long Beach and the region strongly believe that Homeland 
Security dollars must be targeted to the areas of highest 
threat and need, and Long Beach is very supportive of DHS's 
risk-based funding approach.
    Despite DHS's intent to fund cities at highest risk, the 
LA-Long Beach urban area has experienced a decrease in UASI 
funding since 2006. During this time, our funding has decreased 
13 percent overall. In comparison, over the same period, other 
UASI regions have grown by as much as 51 percent.
    It is important to remember the unique cultural, 
geographic, and economic aspects of the Los Angeles-Long Beach 
urban area. We strongly believe that the region needs more 
Homeland Security aid in our fight against terrorism, precisely 
because it is a high-value target and an attack would have 
enormous consequences that would be felt around the world.
    In terms of future needs, the region is counting on the 
support of the Federal Government to develop complete 
interoperable communications between public safety agencies 
within the region's operational area. Long Beach supports 
additional dedicated funding for interoperable communications 
for all regions based on risk.
    The capability that Long Beach and other cities have 
developed over the past decade must be sustained into the 
future. As we move forward, much of the equipment secured will 
eventually need to be replaced. We support allowing replacement 
of previously purchased equipment as an eligible grant use.
    Additionally, we appreciate the support of Congress to 
continue to provide Homeland Security funds without the burden 
of a matching requirement. Cities are not in the financial 
situation to afford any type of match.
    Speaking for the LA-Long Beach UASI, we also request that 
Congress and DHS reevaluate the allowances for administering 
grant programs. Currently, we are constrained to 3 percent of 
the total grant amount to administer the grant. The workload to 
administer the grants has increased, but the funds to support 
administration have decreased. A reevaluation of the 3 percent 
allowance could help local governments tremendously in handling 
the administrative duties of effective grant management.
    We enjoy a very good working relationship with FEMA Region 
9 representatives. Because of this relationship, we support 
FEMA's concept of regionalization of some aspects of grant 
programs or functions. If the regions are supported with 
adequate personnel and flexibility, we believe that programs 
can be streamlined and issues addressed quickly. However, if 
the proposal simply creates another layer of approvals or 
review, this will significantly hamper effectiveness. We are 
optimistically awaiting the details of the proposal.
    Finally, Madam Chairwoman, I would like to thank you again 
for allowing this opportunity to share with the committee a few 
of the many activities that are going on in FEMA Region 9 in 
the LA-Long Beach UASI area. We wholeheartedly appreciate the 
support you have bestowed upon us throughout the years, and we 
look forward to continuing our partnership in the best interest 
of National security and protecting our communities.
    That concludes my remarks, and I stand ready to answer any 
questions.
    [The statement of Chief Patalano follows:]
                  Prepared Statement of Alan Patalano
                             June 29, 2010
    Good morning Chairman Richardson and fellow Members of the 
committee. I want to first thank you for holding this hearing. 
Emergency communications, preparedness and response are high priorities 
for the city of Long Beach and the region and I know you share these 
priorities as well. Long Beach is a proud member of FEMA Region 9, an 
active member in the Mutual Aid system, and we are working hard with 
our local cities and the State of California to improve emergency 
communications, preparedness, and response in the unfortunate event of 
a natural or man-made disaster.
    As you are well aware, our local area has very serious homeland 
security threats, including foremost the Ports of Long Beach and Los 
Angeles. Both Los Angeles and Long Beach continue to require 
significant Federal assistance to secure these two ports, which are 
incredibly valuable economic generators for the entire Nation.
    To give an example, Long Beach refineries are responsible for one-
third of the gasoline west of the Rockies. The Port of Los Angeles 
contributes $226.9 billion annually to the National economy through 
trade, and the Ports of Los Angeles and Long Beach handle 30 percent of 
all U.S. shipping imports. According to a 2005 RAND study on the short-
term and long-term economic impacts of a nuclear attack on the Port of 
Long Beach, the economic impact could initially exceed $1 trillion 
dollars.
    Additionally, our region is uniquely vulnerable to other acts of 
terrorism. As the center of the film and entertainment industry, the 
Southern California region is the face of iconic American culture. The 
region puts on hundreds of events each year that are broadcasted to the 
rest of the world. While not permanent pieces of infrastructure, these 
high profile events with large clusters of people are targets for 
terrorists and need to be taken into greater consideration when 
evaluating risk.
    However, our Operational Urban Area Security Initiative (UASI) 
Areas have been the beneficiary of Federal assistance to develop a 
significant preparedness and response capability to potential terrorist 
threats. Over the past 4 years, the combined Los Angeles/Long Beach 
local region received over $400 million dollars through Urban Area 
Security Initiative funds and the State Homeland Security Grant 
Program. These funds have been instrumental in increasing the overall 
capabilities of emergency operations in the Region.
    In the case of Long Beach, over the past 10 years Long Beach has 
received $61 million dollars in Federal grant funding. These funds have 
come from eight programs including the Department of Defense, Office of 
Domestic Preparedness, Metropolitan Medical Response System, Office of 
Justice Programs, State Homeland Security Grant Program, Citizens Corps 
Program, Law Enforcement Tactical Planning and Preparedness, but 
mostly, from the Urban Area Security Initiative. The Urban Area 
Security Initiative has been instrumental in furthering emergency 
preparedness and protections for the city. Of the $61 million in 
Homeland Security funding Long Beach has received, $55 million was 
funded through the Urban Area Security Initiative.
    Specifically, the Long Beach Fire Department has upgraded existing 
communications capabilities at our state-of-the-art ECOC, or Emergency 
Communications and Operations Center. The addition of a command-and-
control platform and the upgrade of radio equipment and technology will 
ensure that communications with partner response agencies are possible. 
These funds have also allowed us to work with fire agencies within our 
Operational Area. We have also standardized the Self Contained 
Breathing Apparatus, which is integral in keeping our public safety 
personnel safe as they work to bring others to safety. Additionally, we 
have added interoperable connectivity to our breathing equipment so 
that firefighters can assist each other.
    We have seen in disasters such as Hurricane Katrina, that the 
ability to move many people at once is absolutely necessary. Our Urban 
Area Security Initiative funds have allowed Long Beach and the region 
to increase our capacity to treat multiple victims with the deployment 
of Mass Casualty equipment and supplies. To this end, we have also used 
Urban Area Security Initiative funds and other Homeland Security grants 
to enhance our Urban Search and Rescue capabilities.
    The Port of Long Beach is a significant asset in our region. As the 
Port receives mass amounts of goods and supplies from around the world, 
we have, in cooperation with the Port and the region, secured the 
capabilities to deploy a Hazardous Materials Team equipped with 
protective equipment and medicines to keep our public safety employees 
safe while they work to protect the public and keep the Port complex 
functioning. However, despite some investment in this area, protecting 
international trade is a core responsibility of the Federal Government 
and a much larger commitment is needed to truly protect our community 
and the entire Nation.
    Our local police department has also benefited from Homeland 
Security grant funds. The capabilities of the SWAT team have been 
increased through the purchase of specialized equipment, personal 
protective equipment, and an armored vehicle. In coordination with 
other law enforcement agencies in the Operational Area, the region has 
secured communications equipment for interoperability and significantly 
increased intelligence capabilities by participating in the Joint 
Regional Intelligence Center. These funds have also implemented an 
Automated License Plate Recognition system that has given regional law 
enforcement agencies the ability to quickly identify vehicles within 
the city and apprehend individuals that pose a threat to our community.
    Homeland security funds have also increased the region's 
capabilities to distribute medicine during a significant disaster with 
the development of Point of Dispensing sites throughout the Region. 
Funds have also been utilized to increase the capabilities of our local 
laboratory to analyze, detect, and rule out chemical and biological 
threats.
    The Los Angeles/Long Beach region is home to many airports, 
including Long Beach Airport. Homeland Security funds have increased 
security at Long Beach Airport with the installation of physical 
barriers and cameras. These homeland security upgrades have also been 
implemented at other airports in the region.
    Since the onset of the Homeland Security grants and even prior to 
the current Homeland Security model, Long Beach has focused on 
utilizing these funds to increase our region's overall capabilities. We 
apply for and use these funds based upon risk and the ability to 
utilize awards in conjunction with local resources.
    Long Beach and the region strongly believe that Homeland Security 
dollars must be targeted to areas of highest threat and need, and Long 
Beach is supportive of the Department of Homeland Security's risk-based 
funding approach to Homeland Security grants. Funding formulas that 
guarantee minimum amounts to all States regardless of risk should 
continue to be reduced significantly.
    Despite the Department's intent to fund cities at highest risk, the 
Los Angeles and Long Beach Urban Area has consistently experienced a 
decrease in UASI funding since 2006. Even with a slight increase in 
funding in fiscal year 2010, funding has decreased 13 percent overall 
since fiscal year 2006. In comparison, over the same period, the Bay 
Area has received an increase of 51 percent, the New York region has 
increased 22 percent, and the Chicago region has increased 4 percent. 
It is important to remember the unique cultural, geographic, and 
economic aspects of the Los Angeles/Long Beach Urban area that are 
sometimes not taken into account. We strongly believe that the region 
needs more homeland security aid in the fight against terrorism 
precisely because it is a high value target for terrorists and an 
attack would have enormous consequences that would be felt around the 
world.
    In terms of future needs, the region is counting on the support of 
the Federal Government through Homeland Security funds to develop 
complete interoperability between public safety agencies within the 
Region's Operational Area. This interoperability project is currently 
in the design phase and will need significant funding in the future to 
be successful. Long Beach supports additional dedicated funding for 
interoperable communications for regions based on risk, and not based 
on a formula that distributes funds to all States regardless of risk.
    As you all know, there are always many shifting management 
components whenever a disasters strikes. This is why training exercises 
during times of peace is so important. Long Beach and the entire region 
is counting on the Federal Government to continue to support training 
exercises so that we can be prepared to assist our communities and the 
Nation in the unfortunate event of a disaster.
    The capability that Long Beach and other cities have developed over 
the past decade must be sustained into the future. As we move forward, 
much of the equipment secured will eventually need to be replaced. Long 
Beach supports the Department allowing replacement of previously 
purchased equipment as an eligible grant use, as much of the equipment 
purchased under the first rounds of UASI grant funding will have to be 
eventually replaced to maintain the current level of response 
capability.
    Long Beach and the region area are also requesting that Homeland 
Security play a role in meeting our personnel costs. Emergency 
communications, preparedness, and response is a personnel intensive 
operation. The ability for us to move forward requires the continuous 
development and maintenance of personnel, training, and plans.
    Additionally, we appreciate the support of Congress to continue to 
provide homeland security funds without the burden of a matching 
requirement. Cities are not in the financial situation to afford any 
type of match, and much of the response personnel the Federal 
Government will require in the event of a National emergency will be 
the local first responders that local governments already provide for 
utilizing local funds.
    Long Beach also requests that Congress and the Department of 
Homeland Security reevaluate the administration allowances in the 
various grant programs. Under the UASI program for example, local 
regions are constrained to 3 percent of the total grant amount to 
administer the grant, while States are allowed to set aside up to 20 
percent. This imbalance leaves local areas with very few funds to 
administer these complex grant programs, and a reevaluation the 3 
percent allowance could help local governments tremendously in handling 
the administrative duties of effective grant management.
    We have enjoyed a very good working relationship with Region 9 
representatives because they understand the complexity and needs of 
this area. Because of this relationship, we support FEMA's concept of 
moving some grant programs or functions to the Regions. If the Regions 
are supported with adequate personnel and flexibility, we believe that 
programs can be streamlined and issues addressed quickly. However, if 
the proposal simply creates another layer of approvals or review, this 
will significantly hamper effectiveness and threaten the excellent 
relationship we have enjoyed to date. We are optimistically awaiting 
the details of the proposal.
    Finally, Chairwoman Richardson, I would like to thank you again for 
allowing this opportunity to share with the committee a few of the many 
emergency communications, preparedness, and response activities that 
are going on in FEMA Region 9. We wholeheartedly appreciate the support 
you have bestowed upon us over the years, and we look forward to 
continuing this partnership in the best interests of National security 
and protecting our communities.

    Ms. Richardson. Thank you for your testimony.
    I now recognize Ms. Tierney to summarize her statement for 
5 minutes.

STATEMENT OF MARYANN TIERNEY, DEPUTY MANAGING DIRECTOR, OFFICE 
         OF EMERGENCY MANAGEMENT, CITY OF PHILADELPHIA

    Ms. Tierney. Good morning, Chairwoman Richardson, Ranking 
Member Rogers, and Members of the committee. I want to thank 
you for the opportunity to testify on the important subject of 
the future of GPD.
    My name is MaryAnn Tierney, and I am the director of 
emergency management in the city of Philadelphia. Today, I am 
going to discuss with you the role of FEMA regional offices and 
the need for coordination and consistency throughout the grant-
making process, as well as several aspects of the Homeland 
Security Grant Program managed by GPD.
    To the extent possible, Federal departments, State 
administrative agents, and applicants should synchronize their 
efforts. For example, agencies like DHS, HHS, and DOJ should 
coordinate grant guidance to ensure funding supports National 
priorities and is mutually complementary. In addition, 
applicants should be jointly reviewed to avoid funding that is 
duplicative or working at cross purposes.
    Similarly, SAAs within the State should be required by 
their funders to meet, discuss, and together review 
applications and monitor project implementation. Applicants 
should be required to undergo similar coordination activities.
    For example, equipment purchased, regardless of funding 
source, should be governed by similar requirements, such as the 
use of an authorized equipment list. The DHS authorized 
equipment list identifies equipment meeting specific standards 
that may be purchased utilizing DHS grant funds and insures 
operability, especially for highly technical equipment used for 
emergency communications. Currently, the use of such a list is 
not required by all Federal departments. This could result in 
purchasing communications equipment that does not meet 
interoperability standards and, therefore, might not work with 
communications equipment purchased with other grants.
    I have attached a copy of FEMA's May 2009 report to 
Congress that is an excellent roadmap for improving the grant-
making process. This report's recommendations emphasize the 
need for coordination amongst all parties and offers options 
for how this can be achieved.
    FEMA regional offices that are properly staffed and 
adequately supported by GPD can enhance the overall grant-
making process on a micro level. However, this must be coupled 
with centralized management and macro-level coordination across 
regions to ensure consistency.
    Regional offices can serve as conveners, facilitators, and 
possibly the primary point of contact for grants, provided 
there is centralized management and monitoring of policy 
interpretation and implementation. Guidance should be developed 
that creates boundaries and allows for flexibility to 
accommodate the many unique needs of applicants. Similar 
guidance should be provided to SAAs to ensure grant programs 
are being implanted as intended and consistently within a 
State.
    GPD should be commended for issuing Information Bulletin 
336, which provided a logical and balanced policy for utilizing 
grant funds for sustainment. However, GPD should revise 
Information Bulletin 329 and develop a more manageable process 
for environmental and historic preservation review. 
Construction, which typically prompts an EHP review, is not an 
allowable activity under the Homeland Security Grant Program. 
Rather, most projects involve equipment, purchases, and 
professional services contracts.
    More needs to be done to facilitate funding for projects 
over multiple grant periods. Currently, projects can be funded 
for a given grant period but are assigned an artificial end 
date to coincide with the expiration of the grant, which may or 
may not match the actual end date of the project. This can 
complicate strategic planning and may result in a more 
expensive project.
    It is essential that management and administration funding 
be sufficient to meet the need to manage projects and the back-
office activities that bring those projects to fruition. For 
example, the Philadelphia urban area may be juggling up to $60 
million at any given time. Organizations of this size cannot 
function like a mom-and-pop pizza shop. We use M&A funds to 
retain professional staff and also provide for a fiscal agent 
to ensure that grant reporting requirements are met and grant 
funds are spent appropriately.
    I want to emphasize that the GPD programs provide an 
enormous opportunity to improve preparedness. For example, the 
Philadelphia urban area has invested over $20 million in the 
development of a four-State, 11-county interoperable 
communications systems, known as SECOM Net. This network 
patches existing radio systems together through a network of 
secure microwave communication towers. Whether you are in a 911 
center, an emergency operations center, or at the scene, you 
can communicate with any response organization, regardless of 
their location in the region.
    The value of SECOM Net is both in the technology provided 
and the governance structure established to plan, manage, and 
maintain the network. It is an excellent example of improving 
preparedness by coupling planning with resources provided by 
the GPD programs.
    In conclusion, solely examining GPD and its role in the 
grant-making process can create the false impression that 
tweaking one cog in the wheel will enable the Nation to better 
counter threats and respond to emergencies. Coordination beyond 
GPD is necessary. Likewise, the grant-making process can be 
enhanced by connecting central management to regional 
involvement.
    I once again thank you for the opportunity to testify. I am 
happy to answer any questions you may have.
    [The statement of Ms. Tierney follows:]
                Prepared Statement of MaryAnn E. Tierney
                             June 29, 2010
    Good morning Mr. Chairman and Members of the subcommittee. I want 
to thank you for the opportunity to testify on the important subject of 
the future of the Federal Emergency Management Agency's (FEMA) Grant 
Programs Directorate (GPD). My name is MaryAnn Tierney and I am the 
Director of Emergency Management in the city of Philadelphia. I have 
been in this position since November 2006. Prior to that, I was the 
Assistant Commissioner for Planning and Preparedness with the New York 
City Office of Emergency Management where I worked from 1999 until 
2006. Attached to this testimony is a detailed biography for your 
reference. Today I am going to discuss with you the need for 
coordination and consistency in the grant-making process as well as the 
potential role of FEMA Regional Offices in this process. Additionally, 
I will provide testimony on specific aspects of the Homeland Security 
Grant Program (HSGP) managed by the GPD. Lastly, I will explain how the 
Philadelphia Urban Area Workgroup (UAWG) sets priorities and will 
highlight a project that has been funded by the HSGP. To the extent 
possible given regulatory and/or statutory constraints, Federal 
departments, State Administrative Agents (SAA), and applicants should 
coordinate their efforts at every step of the grant-making process to 
more effectively prepare the Nation to prevent, respond to, recover 
from, and mitigate threats and risks. At the Federal level this should 
involve coordinating the development of grant guidance between agencies 
like the Department of Homeland Security (DHS), the Department of 
Health and Human Services (DHHS), and the Department of Justice (DOJ) 
to ensure that funding supports National homeland security and 
emergency preparedness priorities and is complementary towards one 
another. Additionally, during the grant application review process, 
jurisdictions or their component agencies should be required to detail 
all actual or potential funding sources. Applicants seeking multiple 
funding sources should be reviewed through an interagency process to 
ensure funds are not working at crosspurposes nor are duplicative.
    I have attached to my testimony a copy of the ``Interagency Report 
on Preparedness Grant Programs.'' This report was provided to Congress 
by FEMA in May 2009. While I find the entire report to be an excellent 
roadmap to improving the grant-making process, I want to draw your 
attention to the following recommendations:
  <bullet> Recommendation 4.--Coordinate across Federal agencies during 
        program development to set clear, coordinated goals for 
        preparedness-related programs that: (a) Support recipients' 
        development of clearly defined goals and milestones for use of 
        awarded funds and (b) facilitate the measurement of recipient 
        performance and program outcomes.
  <bullet> Recommendation 5.--Coordinate across Federal agencies to: 
        (a) Apply consistent evaluation standards to the evaluation of 
        program progress and end results, and (b) account for the 
        resources and effort needed to sustain capabilities.
  <bullet> Recommendation 8.--Federal agencies should improve pre-award 
        information sharing about requested, pending, and awarded 
        grants to facilitate greater transparency of programs, reduce 
        the data entry burden for applicants and recipients, and allow 
        awarding agencies to make more informed allocation decisions.
  <bullet> Recommendation 9.--Congress should authorize Federal 
        agencies to streamline the grants coordination process through 
        official agreements such as Memorandums of Understanding.
  <bullet> Recommendation 11.--Coordinate across Federal agencies 
        administering relevant homeland security programs to agree on 
        the use of a standardized format and structure for guidance and 
        reporting requirements, specifically inclusion in guidance of: 
        (a) An acronym and definition list, (b) clear language defining 
        application, reporting, and performance expectations, and (c) a 
        multi-agency list of relevant homeland security grant programs.
  <bullet> Recommendation 12.--Coordinate across Federal agencies to 
        provide a consolidated public resource of information related 
        to homeland security grant programs such as application forms, 
        reporting materials, and program requirements. If this 
        capability is not developed in Grants.gov, departments that 
        administer relevant grant programs should provide on their 
        public website a consolidated source of related grant program 
        information, including all relevant resources on Grants.gov, 
        guidance, application and reporting requirements, related 
        documentation, and systems used by recipients to submit this 
        information. Similarly, the SAAs for different grant funding 
        streams should be required by their funders to meet, discuss, 
        and develop multi-agency State strategies as well as conduct an 
        interagency process to review applications and monitor program 
        and project implementation. Lastly, applicants should be 
        required to undergo similar coordination activities in the 
        development of applications and in the implementation phase of 
        programs and projects.
    For example, equipment purchased, regardless of funding source, 
should be governed by similar requirements, such as by requiring all 
grant funding sources utilize the Interagency Advisory Board 
Standardized Equipment List (SEL) or the DHS Authorized Equipment List 
(AEL). The DHS AEL identifies which equipment may be purchased 
utilizing DHS grant funding and ensures that equipment purchased meets 
specific standards. The use of standards ensures equipment can be made 
interoperable. This is especially important when equipment is highly 
technical, such as communications equipment. Currently, the use of such 
a list is not required by all Federal departments' homeland security or 
emergency preparedness grant programs. This can result in purchasing 
communications equipment with one grant that does not meet industry 
standards for interoperability and therefore cannot work with 
communications equipment purchased with another grant.
    Recommendation 10 of the ``The Interagency Report on Preparedness 
Grant Programs'' supports this by stating, ``Federal agencies should 
work jointly to develop robust national standards for describing the 
functionality and performance characteristics of preparedness resources 
and capabilities for use by relevant homeland security grant programs 
to enable cross-program coordination.'' I do not advocate handing over 
the grant-making process to FEMA Regional Offices. This will result in 
a haphazard and disjointed system that will frustrate SAAs and 
applicants alike. I do believe that FEMA Regional Offices properly 
staffed and with adequate support from GPD, could add substantial 
value. FEMA Regional Offices provide an opportunity to enhance the 
grant-making process on a micro-level. However, this must be coupled 
with centralized management and macro-level coordination across 
regions. It is important that the grant-making process be centrally 
managed, with input from FEMA Regional Offices, to ensure consistency. 
FEMA Regional Offices should serve as conveners and facilitators for 
many of the multiparty coordination groups I described above during 
various steps of the grant-making process. Additionally, FEMA Regional 
Offices maintain the day-to-day relationships with stakeholders and 
should serve as the primary point of contact for grants, provided there 
is centralized management and monitoring of policy interpretation and 
implementation. A tool to ensuring consistent application of policy 
would be to develop and provide implementation guidance and options 
that creates boundaries for FEMA Regional Offices to operate in and 
allows for flexibility to accommodate the many unique needs of 
applicants. Similar implementation guidance and options should be 
provided to SAAs to ensure grant programs are being implemented as 
intended and consistently within a State. Recommendation 13 of the 
``The Interagency Report on Preparedness Grant Programs'' supports this 
by stating, ``Federal agencies should provide more consistent training 
and technical assistance offerings to recipients and Federal staff who 
administer programs in the areas of technical/information technology 
needs (e.g., Grants.gov training) and grants management (e.g., program 
management), including sharing of best practices within and across 
programs and agencies.'' I would like to now turn from policy and 
process-oriented comments to specific aspects of GPD managed grants. 
GPD should be commended for issuing Information Bulletin 336, which 
provided a policy for utilizing grant funds for sustainment. The policy 
is logical and balanced. GPD should revise Information Bulletin 329 and 
develop a more manageable process for environmental and historic 
preservation review. The policy adopted is similar to the one utilized 
by another FEMA grant program--the Public Assistance Program. Since the 
Public Assistance Program typically involves construction projects, a 
very rigorous process is in place to ensure environmental and historic 
preservation considerations are addressed. Construction is not an 
allowable activity under HSGP, and most projects involve equipment 
purchases and professional services. Projects funded over multiple 
grant periods should be addressed. Currently, projects can be multi-
year within a given grant period, but it is as if a wall exists at the 
end of that grant period and a project is assigned an artificial end 
date that may not match the actual end date of the project. This 
prevents applicants from the kind of strategic thinking many in the 
field advocate for.
    The last specific component of HSGP I want to address is funding 
for Management and Administration (M&A). The Philadelphia Urban Area 
utilizes M&A funds to properly manage the tens of millions of dollars 
that are received. This includes having professional staff on hand to 
manage the work of the UAWG and assist stakeholders with managing and 
executing projects as well as retaining a fiscal agent to ensure that 
grant reporting requirements are met and grant funds are spent 
appropriately. Organizations like this cannot function like a mom-and-
pop pizza shop. In business terms, they are multi-million dollar 
operations that require competent staff and robust systems. To provide 
perspective, in any given year at least three grant periods are open. 
For the Philadelphia Urban Area, that can mean juggling up to $60 
million dollars in various stages of being utilized, from bidding to 
closeout. It is essential that M&A funding be in place to ensure an 
operation like this does not falter, and that the funding equal the 
need to manage the many programs and projects as well as the back-
office activities that bring those programs and projects to fruition. 
With all that said, I want to emphasize that grants programs like those 
managed by the GPD provide an enormous opportunity to improve 
preparedness. I have seen first-hand the incredible leaps forward that 
have been made to build capabilities in a thoughtful and judicious 
manner. The Philadelphia UAWG is organized around discipline-specific 
workgroups that develop and execute projects and an Executive Board 
that provides oversight and coordination. The annual HSGP application 
is developed through a process that emphasizes building on existing 
programs and projects, while allowing for worthwhile innovations to 
surface and receive funding. The Executive Board aligns its priorities 
with National priorities and prioritizes funding programs and projects 
that address these priorities. Further, the Philadelphia UAWG 
emphasizes regional partnership and collaboration, with some projects 
involving up to four States and eleven counties in the greater Delaware 
Valley region. The project I want to highlight involves the development 
of a multi-State, multi-county interoperable communications network, 
known as SECOM Net. Since 2002, the Philadelphia UAWG has invested over 
$20 million to build and enhances interoperable communications 
capabilities. SECOM Net allows eleven counties in four States to 
communicate on a secure microwave network. This communication can occur 
between 911 Centers, Emergency Operations Centers, or person-to-person 
on the scene of an emergency, through the microwave network that 
patches together existing radio systems. Currently, SECOM Net is 
integrating the communication networks of university police departments 
and port partners. Future plans for SECOM Net include a capability to 
transmit data in addition to voice. The value of SECOM Net is not just 
in the technology that has been purchased, but also the governance 
structure that the Interoperable Communications Workgroup has 
established to plan for, manage, and maintain the network. It is an 
example how thoughtful planning coupled with funding to resource what 
is needed can lead to improved preparedness.
    In conclusion, solely examining GPD and its role in the grant-
making process can create the false impression that tweaking one cog in 
the wheel will enable the Nation is to better counter threats and 
respond to emergencies. As I have described above, the nature of 
homeland security grants is complex and requires coordination beyond 
DHS to include other Federal departments, the SAAs, and the applicants 
themselves. Likewise, central management is not the enemy. Centralized 
management can be enhanced by closely connecting regional involvement 
to the grant-making process. Lastly, the revision to the maintenance 
and calibration policy is an example of how GPD can effectively respond 
to the concerns of applicants while remaining careful stewards of 
taxpayer dollars. The environmental and historic preservation policy is 
an example of where more needs to be done to balance those needs. M&A 
is a valuable tool that allows grantees to focus on work rather than 
paperwork. A more stable funding process tailored for projects that 
span multiple grant periods would allow applicants to think more 
strategically about how and what is funded.
    Once again thank you for the opportunity to testify, I am happy to 
answer any questions you may have

    Ms. Richardson. Thank you very much for your testimony.
    I want to thank all the witnesses for your testimony, and 
remind each Member that he or she will have 5 minutes to 
question the panel. I will now recognize myself for 5 minutes.
    Votes have been called, and we have approximately 13 
minutes plus the time to get there. What I would like to do is 
myself and Ranking Member Rogers through in these first 10 
minutes, and then when we come back the Members would be first 
up, which should only take about a 20-minute vote, if everyone 
is in agreement.
    Okay. The first question I would like to ask is for Ms. 
Harman. I am only going to take 2 minutes; maybe then we can 
get more people through.
    Ms. Harman, you heard some of Ms. Tierney's very direct 
suggestions, as well as our chief. Are you willing to consider 
looking at their suggestions and getting back to us in writing 
your responses on ways that you might incorporate them?
    Ms. Harman. Absolutely.
    Ms. Richardson. Okay. Thank you.
    My second question has to do with regionalization. Ms. 
Harman, Chairman Fugate announced back in July 2009 this whole 
idea of regionalization. I really want to get a sense from you 
what is really the objective that we are attempting to reach by 
conducting regionalization. What is the problem that you are 
anticipating solving?
    Ms. Harman. I don't see any problems quite yet, but what I 
see us doing is strengthening FEMA as a whole. We are--and I 
will quote Administrator Fugate, as he speaks--FEMA is one part 
of a team that ultimately plays in this large scale of 
responding to disasters, providing assistance, helping build 
capabilities. We are one part of that. We have 10 fingertips, 
10 regions, to extend and provide customer service to our 
grantees and stakeholders. I don't think those have been used 
effectively and efficiently in the past.
    I think we can strengthen them. I think we can provide the 
rules and tools at our headquarters. With the proper, training, 
outreach, monitoring, and mentoring with our FEMA regional 
partners, I think you will see better customer service in the 
end to the States, to the transit folks, to the port 
authorities as well.
    Together, if they can conduct the monitoring and the boots 
on the ground within the regions, we can gather much more data 
to provide up to us to help us better assess where we are and 
how prepared we are.
    Ms. Richardson. Ms. Harman, I just heard what you said. I 
stayed up until 1:00 in the morning reading all this 
information. I still don't think, though, you have answered the 
question.
    Ms. Harman. Okay.
    Ms. Richardson. I think everyone would pretty much agree 
that, from a regional perspective, it would clearly be more 
helpful, if a disaster occurs, to have the people who have the 
authority to respond. We all agree with that.
    What we are talking about specifically is the grant 
program. If you are mentioning regionalization in terms of 
monitoring and making sure the dollars are being spent where 
they should, we all agree with that. However, we are talking 
about the very basics of sending out an application, reviewing 
an application, and determining the dollars.
    Is that something that is best placed in a regional 
perspective? Could you answer that question very directly?
    Ms. Harman. Sure. We actually have a working group that is 
going to be put together and will be kicking off later, mid-
July--it will be a conference call--and have a face-to-face 
meeting August 3 through 5. That will consist of one member 
from each region, as well as stakeholders, if we can, and 
headquarters personnel.
    The grant process is a very long process, and I don't think 
the entire process is well-suited to be placed in the region, 
whereas parts of it may be more appropriate, whereas the 
drafting of the guidance, creation of guidance, application 
period, peer-review process, possibly all the way up through 
award could occur within headquarters. The beginning of that 
process could have a lot of interaction with our regional 
partners, but maybe we take care of the award at headquarters.
    Once that award is given and the proper tools and staffing 
and resources within each region, that could then be handed 
down to the regions to be that first point of contact for any 
grantee if they have questions on their grant--what the 
guidance means, what their investment justifications mean and 
how they go about attaining that and meeting what they said 
they were going to do in the grant.
    So I don't see a whole piece of every grant program--the 
whole entire package. I see pieces of it, in a partnership 
fashion.
    Ms. Richardson. Ms. Harman, I might suggest that--you said 
you may include a stakeholder. I would suggest that you do.
    Ms. Harman. We would like to, yes.
    Ms. Richardson. The other point I would make is, keeping in 
mind what the AG's comments are I think would be most helpful.
    Mr. Rogers, I will recognize you for 5 minutes.
    Mr. Rogers. Thank you, Madam Chairwoman.
    Ms. Harman, you talked about 98 percent of the vacancies 
that you have in the Department are now posted.
    Ms. Harman. Correct.
    Mr. Rogers. How many vacancies is that?
    Ms. Harman. We were just under 50. I can get you that exact 
number. Roughly 25 percent of our workforce of 192 full-time 
personnel, almost 50, in the high 40s.
    Mr. Rogers. Is there a particular sphere where those 
vacancies occur? Is it management?
    Ms. Harman. Unfortunately, they are throughout. Right now, 
I am significantly lacking some senior management. We are 
missing--our deputy assistant administrator left not long after 
I came on-board, as well as several significant leadership 
positions, branch chiefs, within our Financial Division left.
    Mr. Rogers. The mid-level, upper-level management positions 
throughout the Department have been problematic, keeping those 
people.
    Ms. Harman. Right.
    Mr. Rogers. What unique challenges do you think you are 
going to face in trying to get people of the caliber you want 
to fill those positions and retain them?
    Ms. Harman. Right. It is an interesting concept, coming in 
and looking at the management style that has been used in the 
past. From my perspective, it has been a very top-down approach 
with management, leading to some of the vacancies, I believe. I 
don't think our employees have been empowered. I don't think 
they have been given the opportunity for continuing education, 
for training, to have more of an engagement in the process, 
understanding what that is; which then, of course, leads to 
morale.
    So it is a vicious cycle that, right now, we are trying to 
break. We are very fortunate to have the support of FEMA 
leadership. The first week I came on-board, I met with our HR 
department. Vacancy announcements were posted. All, I think, 
but four positions were posted within the first 2 months. 
Everything now has been posted. I have a full day of interviews 
scheduled tomorrow with the rest of the staff.
    I am very pleased to see that. We have support all the way 
up through the DHS leadership, as well, on that.
    Mr. Rogers. I know, throughout the Department, employee 
surveys on job satisfaction are done. What is the most recent 
time that surveys were done in your Department, do you know?
    Ms. Harman. Within the directorate, I can't answer that. I 
can get back to you on that. But there has been one done within 
FEMA, organization-wide.
    Mr. Rogers. Since you have been there?
    Ms. Harman. Yes. We have had an opportunity to--we were 
asked to give time for our staff to take on hour out of their 
day to provide comments on where FEMA is going.
    You see a lot of similarities across directorates, where, 
you know, most of the time, the employee is not really familiar 
with: What are my roles and responsibilities? Truly, what am I 
charged with?
    Mr. Rogers. So you have had a chance to have that 
information presented to you and review it?
    Ms. Harman. Yes. Yes.
    Mr. Rogers. Okay. Good.
    Ms. Harman. Additionally, we have also had two additional 
workforce analyses conducted within the Grant Programs 
Directorate, and I am working with that data, as well.
    Mr. Rogers. Again, we see this consistently throughout the 
Department. I would be very interested in, during your period 
of time there, to see that done annually so that you can start 
trying to track shortcomings. Because we see a lot of 
institutional knowledge go out the door as we lose these mid- 
and upper-level people, and we have to figure out how to keep 
them.
    Ms. Harman. Agreed.
    Mr. Rogers. One other point before I let my time go. I 
represent a rural Congressional district. As you know from 
being a former firefighter, most rural areas of the country 
depend on volunteer departments. In fact, in my Congressional 
district, the overwhelming number of first responders are 
volunteers. They depend heavily on these DHS grants.
    Can you talk to me about that area of the grant process and 
what you see are its shortcomings and what we can do to make 
sure that those needs are met?
    Ms. Harman. Sure. As you know, the majority of the funding 
that comes out of the Grant Programs Directorate goes through 
the State Homeland Security Grant Program, the UASI Program. 
Those dollars go directly to the State administrative agency, 
as designated by the Governor in each State. Those SAAs are 
required to work within their State to identify areas of 
greatest need of where those dollars should go.
    Unfortunately, at times, what happens and what has been 
brought to my attention and from my experience in the past is 
that those small, rural areas are sort of left out. They don't 
have a seat at the table. They may not be in an area of high 
risk. They may not be a high priority for that particular 
State.
    It is important for us and in my position now to teach 
individuals like that and organizations how to leverage 
existing dollars that are out there. You have the State 
Homeland Security moneys and the UASI moneys that I mentioned, 
but you also have an AFG program which bypasses the State. So 
there are pros and cons to that----
    Mr. Rogers. How are you going to teach them?
    Ms. Harman. It is a lot of outreach. A lot of it is 
relationship building. A lot of it is having a seat at the 
table.
    I have had an opportunity to be at a lot of different 
conferences now and speak. You hear from the folks who have 
money, and then you hear from folks who don't have the money. 
It is--they don't have a seat at that table. I ask them, are 
you at the table when the State is making the decisions on 
where those dollars are going? Most of the time, they don't. 
They need to have that.
    Mr. Rogers. Good. Good answer.
    Thank you, Madam Chairwoman. I yield back.
    Ms. Richardson. Thank you.
    I gave back 50-plus seconds on the time. The Chairwoman 
will now recognize other Members for questions they may wish to 
ask the witnesses. In accordance with our committee rules and 
practices, I will recognize Members who were present at the 
start of the hearing, based on seniority of the subcommittee, 
alternating between the Majority and Minority. Those Members 
coming in later will be recognized in the order of their 
arrival.
    The Chairwoman will now recognize for 5 minutes the 
gentleman from New Jersey, Mr. Pascrell. But please keep in 
mind, we are down to 3 minutes and 52 seconds left to vote. 
Although, 300 Members have yet to vote.
    Mr. Pascrell. Thank you, Madam Chairwoman.
    Ms. Richardson. Absolutely.
    Mr. Pascrell. Assistant Administrator Harman, it took us a 
long time to get people who are involved, both policemen and 
firemen, in homeland security. So we decided to finally go 
bottom-up. Therefore, I am thankful that you are in the 
position that you are in, being both a volunteer and career 
firefighter.
    Ms. Harman. Thank you.
    Mr. Pascrell. So I am sure you will appreciate the question 
I am going to ask.
    Ms. Harman. I will let you know. Thank you.
    Mr. Pascrell. The homeland security grant activity 
receiving the largest cut in the--you knew what I was going to 
ask--fiscal year 2011 budget proposal are the two firefighter 
assistance grants--probably, according to third-party 
evaluations, two of the most efficient, proficient programs in 
the entire Federal Government.
    Ms. Harman. Uh-huh.
    Mr. Pascrell. You are agreeing with me?
    Ms. Harman. I would agree with you on that, yes.
    Mr. Pascrell. I mean, we worked it out that way. The 
staffing for adequate fire and emergency response, the SAFER 
Act, and the Assistance to the Firefighter Grant Program, AFG, 
that collectively the two programs would receive $610 million. 
That is $200 million less than in fiscal year 2010. We are 
going backwards.
    We fought so hard, Members from both sides of the aisle, 
both sides, to make sure that this was an adequate response. 
Considering you get about $3.5 billion in application, we are 
definitely going backwards.
    I want you to explain to the committee the agency's 
decision to cut the money.
    Ms. Harman. Thank you for your question.
    Although I was not present and have been on-board about 
3\1/2\ months now, unfortunately I did not have the opportunity 
to participate in the budget process and the submission process 
on that.
    As I understand, the budget that was submitted from FEMA 
was higher than prior years' submissions from FEMA. But, still, 
that is less than what is being asked for by your committee. 
That is something I can certainly look into in the future. I am 
not sure, I haven't been educated on that process yet, but we 
can certainly look into that.
    Mr. Pascrell. Madam Chairwoman, I think this is of great 
importance for people on both sides of the aisle who have made 
this a major priority. We should be funding the programs that 
are efficient and proficient and looking at those programs that 
aren't working well.
    Here we have the biggest--going through the programs that 
are doing the best. This is peer-oriented. We save a lot of 
money in doing that. It has been fair. We don't have the usual 
rural-versus-city flak. I mean, this, from the very inception, 
has been done the way it should have been done, the way all 
programs should be done. No politics are involved since 
Congressmen like myself cannot get involved in its evaluations.
    What are we doing? It makes no sense. So I would like for 
you to go back and tell your superiors that it makes no sense.
    Ms. Harman. Yes, sir. Will do.
    Mr. Pascrell. Thank you very much.
    Thank you, Madam Chairwoman.
    Ms. Richardson. Thank you, Mr. Pascrell.
    In light of the fact that we now have 17 seconds to vote, 
but 200 Members have yet to vote, the committee will stand in 
recess to allow Members to vote on the floor. I believe we have 
two votes before us. The committee will reconvene in 10 
minutes, after the conclusion of the last vote in this series 
of floor votes.
    [Recess.]
    Ms. Richardson. The hearing will come to order.
    I recognize myself for as much time as I might need to go 
through several questions.
    First of all, Ms. Harman, I want to come back to a couple 
of things. We were a little rushed because votes were called, 
and I want to make sure for the record some things were clear.
    Mr. Pascrell was stating to you his concern of the cuts, 
regarding specifically the firemen programs. Your response was, 
was that the overall budget was suggested to be increased for 
DHS. But I don't think you really answered the point of his 
question, which was, specifically, as we move forward, do we 
have an understanding from you of the value of the firemen 
grants section and an understanding that you will work with us 
to ensure that those levels stay at the appropriate full-year 
2010 numbers as we move forward?
    Ms. Harman. Yes. I will do my best for that.
    Ms. Richardson. Thank you.
    Again, I wanted to be clear that Ms. Tierney, I think, 
spent a lot of good time going through some specific, very 
basic things that could be done to improve what is happening 
for the first responders and stakeholders. You committed to 
going through that. The chief also laid out several options for 
you to consider, and you said you would get that back to the 
committee in writing.
    Ms. Harman. Yes, I will.
    Ms. Richardson. I also wanted to come back to he mentioned 
that Tier I has experienced a decrease in funding, however in 
the second tier there has actually been an increase. Can you 
give us any thoughts as to why that is happening and how we can 
expect that to revert back to its original goals?
    Ms. Harman. Sure. As you are aware now, the UASI pot of 
money is a static pot of money right now. The budget that is 
being proposed for next year, I believe there is not any 
significant increases or decreases. The formula that is looked 
upon for all of the UASI cities--there are currently 64--is 
being looked at for the fiscal year 2011 cycle. Actually, all 
risk formulas across the board will be looked at to ensure that 
they are clear, solid business processes, and risk is truly a 
factor. There is currently fresh data that is being used to 
associate risk with each city as it is on there. The Secretary 
has asked us to look at those risk formulas, and then there 
will be a determination made on the 64 cities that are 
currently on there on how that is going to fall out.
    Ms. Richardson. So will you follow up with the chief to 
give an understanding of why it was down in this last year and 
how we can ensure that that doesn't happen again? When we talk 
from a risk assessment, there really isn't a larger problematic 
area in terms of ports and water treatment facilities and the 
many other issues that we have in that particular area.
    Ms. Harman. Sure. We can work together on that.
    Ms. Richardson. Okay. I also wanted to clarify for the 
record what has been of much question for this committee is the 
regionalization. As I understood you to say, before I gave back 
my time trying to allow for other committee Members, you did 
not see the regionalization rollout to include the actual 
granting of the awards or the reviewing of the awards and that 
it was done more from a monitoring perspective. I don't want to 
put words in your mouth, but could you re-clarify for the 
record what your thoughts are at this point?
    Ms. Harman. Sure. I certainly, as the Assistant 
Administrator for the Grant Programs Directorate, have a vision 
of how I would like to see it, but it is important for me also 
to hear from the working group that is being put together on 
really, truly what is feasible and what is going to work.
    I think if you were to graph out the grant process from the 
drafting of the grant guidance all the way out through closeout 
and all of those different boxes in there, I think there are 
parts of that that belong at headquarters, there are parts of 
it that are shared, and there are certain parts that belong in 
the regions. Up through and including award, I believe the 
majority of those functions should stay at headquarters to 
allow us to maintain standardization, provide rules, and tools.
    We certainly will have to have interaction with the regions 
when it comes to the applications and the States as they are 
applying and they are writing their investment justifications, 
we go through peer review processes on the various programs. It 
is important for them, because they do have that boots-on-the-
ground perspective of what is going on in those States in the 
regions that they are responsible for to provide us some 
clarity on where we are going in the grant programs.
    But up and to award, there are a lot of administrative 
processes, including Congressional notifications and things 
like that that are probably more suited to stay at 
headquarters. I think once that award is made, it goes out to 
the regions, we provide the rules and tools saying, hey, these 
are some new grantees, or here are your high-risk grantees, or 
here are folks that you really need to monitor this year. We 
sort of tier that and help them in that approach so that they 
can truly be that face-to-face contact with all of the 
grantees.
    So that is just my concept. We will be able to solidify 
that through the work of the working group.
    I have had an opportunity talk with all of our 10 regional 
administrators about 2 weeks ago in Boston at their meeting. 
They are very open to this. They are very excited about the 
fact that we are including them in the process and having them 
help drive where this goes. So I think that is important. But 
that is my concept, but I want to hear from the stakeholders 
and the working group.
    Ms. Richardson. Ms. Richards, based upon what Ms. Harman 
has just laid out, what would be your thoughts on that in light 
of what you have already considered?
    Ms. Richards. Well, as you know, we haven't had a chance to 
look at what FEMA's working group hasn't put together yet. 
Without the blueprint that they put together of how they are 
going to regionalize, I am really not in a position to offer 
comments on their regionalization plan.
    In general, regionalization, as Ms. Harman has described 
it, is very feasible from our point of view, but until we can 
see the details, I really cannot form an opinion of how well it 
would work.
    Ms. Richardson. So at what point, Ms. Harman, do you 
anticipate releasing this information? I think in my notes it 
said there is going to be a rollout in July, which is next 
month.
    Ms. Harman. We solicited to the regional administrators to 
provide us one name from each region. We are still selecting 
input from specific personnel within the grant program 
directorate of who is going to participate on that, as well as 
trying to identify our stakeholders in that as well. There will 
be a conference call scheduled in late July, so that the 
working group should be put together by mid-July, conference 
call late July, face-to-face meeting August 3-5. I believe that 
region 9 has offered to host that for us. I see them getting 
together, putting this information together, and hopefully we 
can start rolling out for fiscal year 2011.
    Now, what that rollout means is up to the working group. We 
are still working with resource deficiencies, staffing 
deficiencies, so I don't see any need to rush any of this. I 
want to take a very slow, methodical approach so that everyone 
has an opportunity to provide input on where this should go, 
how it should go, what programs should go to the regions, at 
what time should they go to the regions. It is really much a 
work in progress right now; and if I can work with you and your 
staff, I would be more than happy to do that.
    Ms. Richardson. Well, Ms. Harman, if you could provide the 
committee at least a preliminary rollout, that you anticipate 
so that we can, as we interact with you in the upcoming months, 
continue to have this discussion that would be most beneficial.
    But let it be said that, from my perspective at least, 
regionalization from the response perspective, I completely 
concur; from a monitoring of grants, I completely concur; but 
from everything other than that, I do not. So, hopefully, we 
will see the working group echo those concerns and we will see 
that reflective in your policy.
    Out of respect for Mr. Cleaver, who was here earlier, I am 
going to recognize him for 5 minutes; and then return for my 
last questions.
    So Mr. Cleaver from Missouri is recognized.
    Mr. Cleaver. Thank you, Madam Chairwoman.
    Ms. Richards, and maybe to some degree the chief, I am a 
former mayor, and mayors do not appreciate, no matter what 
political affiliation, the fact that money flows from 
Washington to State capitals. In fact, we would like to have 
Governors eliminated from the plan. What generally happens is 
that the money goes into the State; and, unlike cities, the 
States may have multiple departments that handle Homeland 
Security issues but the question is always standards. Is there 
something that we can do that would make sure that even if a 
State has two or three different State departments deal with 
Homeland Security issues that they operate with the same 
standards that come from the Homeland Security office or FEMA 
office here in Washington?
    Ms. Richards. That is one of the barriers that we recognize 
in our report, that in some States they don't have a coherent 
view that would allow all the players from the State to have a 
seat at the table to apply for and receive the grant money. I 
don't have an answer for you on how to fix that, but we have 
recognized that as a barrier and have tried to work with FEMA 
to help them work with the States to try and clarify the 
situation as well as FEMA can through its guidance on how the 
monies are to be distributed.
    Mr. Cleaver. Chief, do you find that there is a question in 
California where Sacramento is operating the grants program but 
they may have three different departments involved?
    Mr. Patalano. In the State of California, they do have a 
fairly robust Office of Emergency Services that manages the 
grant programs. However, we do see that there is a little bit 
of a disconnect between several of the groups that are involved 
in that process; and certainly several of the larger UASIs have 
recommended or suggested that direct funding to Tier I UASIs 
might be a way to limit the burden on the State and also 
improve the efficiency of the program.
    Mr. Cleaver. Ms. Harman, realizing that this is an issue--
or maybe it is an issue for people like me but maybe not all 
over, but do you have any suggestions on what we can do to 
standardize the way State departments function so that there 
won't be inconsistencies?
    Ms. Harman. Sure. As I shared with Mr. Rogers today, a lot 
of it has to do with building those relationships at the State 
level and having a seat at the table. There is only so much 
that the Federal Government can do within particularly the 
grant program directorate under the guidelines that are set 
forth in the legislation of specifically who gets the money and 
then providing the guidelines of how that money should go down. 
We want to do our best to allow States the flexibility to 
identify their own unique risks within their State and learn to 
build the capabilities specifically that they need.
    For example, if you are in one State, maybe you don't have 
an earthquake problem, you may not have hurricane problems over 
here. We want to give them flexibility to do that. Then in turn 
it becomes a balancing act to make sure that they do have the 
proper people at the table. But without forcing them to do 
that--which I am not sure if that is something we could do or 
should do--I don't think it would be well received from the 
grantees and the stakeholders as they continue to ask for 
flexibility with their grant dollars. I have to ask them 
continually, please have a seat at the table, request people to 
have a seat at the table, and for those who are not getting 
funding, go find your seat at the table.
    But I think we can do a better job of showing people and 
teaching people how to leverage existing dollars out there that 
aren't necessarily Homeland Security dollars. They may be 
coming from HHS, DOT, DOE. There are a variety of grant dollars 
out there that if you can't get one from one spot you can get 
it from the other, and I think we have a responsibility to show 
our stakeholders how to do that until there is a different type 
of system under which we are working.
    Mr. Cleaver. I don't know whether we can dictate to States 
either. I don't think so. But it is an issue that I think 
deserves some attention.
    One final question, and it is related to the number of 
contractors compared to the number of employees. Now, there has 
been suggestion that we have one for one, but that is not in 
concrete.
    Ms. Harman. I have not heard that suggestion. I believe the 
grant program directorate has 192 full-time Feds that are 
authorized. As I mentioned before, we are missing just under 50 
of those, which I am hoping to bring on board, and hopefully no 
one else leaves. We will try to fix that, too.
    Contractor-wise, we are about 210 contractors. We have been 
asked by the division of our administrator, Fugate, to build a 
workforce, build a team, allow people to come in at lower GS 
levels to build that institutional knowledge so that one day 
they are the folks running the show and have senior management.
    We have been asked to insource as much as possible. We have 
begun that effort with several different contracts that we see 
to be long-term contracts of supporting mechanisms, where we 
will convert those folks into Federal employees, and there is a 
cost savings to that. So you will see that FEMA-wide.
    Mr. Cleaver. Thank you. I yield back, Madam Chairwoman.
    Ms. Richardson. Thank you, Mr. Cleaver.
    Coming back to the staffing question and following up with 
Mr. Cleaver, contractors you said approximately 210, and 
regular Government staff you only have 192. So, clearly, that 
builds not just to the rumor but to the fact.
    Ms. Harman. Sure.
    Ms. Richardson. The second question I would say, out of the 
50 vacancies, how many of those would you see being in the 
region?
    Ms. Harman. The current vacancies are vacancies within the 
Grant Programs Directorate. There are vacancies within each 
region. Of course, there are additional resources that will be 
needed in each region. We have been asked by Deputy 
Administrator Serino to provide positions to the regions.
    Ms. Richardson. How many?
    Ms. Harman. A total of 15 from the preparedness, from the 
PNP. I believe from ours was six positions from within the 
Grant Programs Directorate, and I believe that was offset 
because of the number of contractors that we are going to be 
insourcing.
    Ms. Richardson. So, according to my notes, the regions 
currently have a total of 65 staffers with the role of 
preparedness and grant management administration. Is that 
correct?
    Ms. Harman. I can get back to you on that. I don't have the 
specific numbers.
    Ms. Richardson. Well, then, according to the--I think it 
was the Governors--wait a second--well, I believe Ms. Richards 
and then there is another group that had also highlighted that, 
currently, with the regions with their own existing 
assignments--okay, at the request of Congress, the National 
Academy of Public Administration, NAPA, initiated a panel in 
October, 2008, to evaluate FEMA's efforts to build robust 
regional offices. NAPA surveyed the regional staff and found 
that regions themselves felt that they did not have the staff 
or expertise necessary to fulfill their current grant 
management duties. Further, regions indicated that there were 
lengthy delays in receiving guidance from FEMA headquarters on 
how to implement their grant responsibilities.
    Ms. Harman. Sure. I am not familiar with that report.
    Ms. Richardson. So what would you say to that in light of 
your vacancies that you have and in light of the potential of 
additional responsibilities that you are seeking to put on if 
already they felt they couldn't do the job?
    Ms. Harman. Sure. What I like about our regions is they are 
very engaged in the FEMA mission and what we are there to do. 
The enhancements of customer service to our stakeholders is 
very important to everyone. So I want to be sure when we are 
regionalizing and we are giving more responsibilities to the 
regions, it may not occur in every region at the same time 
because of the resource issues, because of the staffing issues, 
because of the current physical space issues.
    We are going to have to take a very slow, almost customized 
approach to build up to true regionalization and what it is 
that we define as regionalization, again, whether that is every 
grant program, some grant programs. But the resources have got 
to be taken into account to do that. Otherwise, we are just 
going to provide poor customer service.
    Ms. Richardson. Ms. Richards, what do you view as the 
problem for the grant drawdown?
    Ms. Richards. Insofar as the grantees being able to receive 
the money?
    Ms. Richardson. Yes.
    Ms. Richards. I don't have any specifics with me today. I 
would have to get back to you on that.
    Ms. Richardson. Ms. Harman, do you have an explanation of 
what the problem is?
    Ms. Harman. Sure. On the grant drawdowns, we hear a lot of 
concern on grant drawdowns, that money has been obligated but 
has not yet been drawn down. I want to throw always caution out 
that the drawdown of grant dollars is not always a good 
indicator of performance. In cases of purchasing equipment, 
such as in our ASG programs where it is a quick piece of 
equipment, nothing has to be ordered; you don't have to go 
through some sort of city council procurement process or 
anything like that. So that goes much quicker, and the drawdown 
rates increase.
    When you are dealing with large capital projects, such as 
the transit security program and the port security program, 
those are long-term capital projects that require lots of 
planning, environmental historic preservation reviews, budget 
reviews, constantly a lot of negotiations and working with our 
partners to figure out what is the project and how do we get to 
the end. And on large capital projects it is not uncommon for 
the majority of those dollars to be drawn down at the end of 
their grant period, which typically is a 36-month period of 
performance.
    So the money is available to be drawn down usually, but we 
are also in a system that allows for reimbursement. So the 
money has to be spent before it can be requested for drawdown. 
So most of those capital projects, the money is not going to be 
spent until later on. Much of the time in that period of 
performance is going to be spent planning.
    Ms. Richardson. Chief, what would you say are some of the 
problems with the grant drawdown?
    Mr. Patalano. I think I would echo Ms. Harman's comments on 
a lot of those issues. We are doing the planning for a project 
that might be large scale and cover the regions, so you have to 
involve a lot of stakeholders in the procurement process and 
you have to follow each city's guidelines as the way that they 
procure and spend. So we are spending, in essence, the city's 
money ahead of time and then seeking the reimbursement once 
that has been done. So we don't enter into the project until 
the money has been awarded to us, and then we start the 
planning process since we don't want to plan for a project that 
we are not going to then institute. So that is one of the 
issues.
    There are a lot of internal processes that have to go on 
with each individual jurisdiction, and so I think that adds 
some of the timeline that is included in the time it takes us 
to spend some of the projects. So we have been very supportive, 
and we appreciate the extensions that would go for a larger-
scale project.
    I think we are going to see continued problems with grant 
drawdowns as we move into more complex regional projects. They 
just take longer to do.
    Ms. Richardson. Ms. Tierney, did you want to add anything 
in terms of the grant drawdown problem?
    Ms. Tierney. No. I would just agree with Chief Patalano 
that the projects that we are dealing with now are multi-
county, multi-year projects that involve millions of dollars, 
not just buying boots and suits. So the procurement is very 
difficult, especially when you cross county lines. Procurement 
rules differ according to different counties, and that can make 
things more difficult.
    Ms. Richardson. Mr. Cleaver, did you have a second round of 
questions?
    Mr. Cleaver. I do have one question I would ask of Ms. 
Tierney and then Ms. Harman.
    Can you give me one pro and one con with regard to the 
grants management function?
    Ms. Tierney. I think one pro that I saw this year, I found 
the process to be much more efficient this year than in years 
past. I have been dealing with these grants for 7 years now. So 
I think over time, as the grant program directorate grows into 
its own, things are becoming more efficient and effective. I 
think that is one good thing, that we are seeing positive steps 
towards improving processes and a willingness to make changes 
when it is necessary.
    I think one con--and I know, Chairwoman Richardson, you 
disagree with this to some extent--is the lack of regional 
involvement in the grants process. I think that on a day-to-day 
basis, I interact, the State interacts with people from the 
FEMA region, FEMA region 3; and those relationships are really 
valuable in terms of monitoring the projects and assisting with 
maybe overcoming some of these hurdles that we have discussed 
today. I think it is a balance that needs to be struck.
    I agree that just dumping the grant program management into 
the regions would create a lot of inconsistency across regions 
and would make it very difficult to manage them centrally. So I 
think there is definitely a role for central management like 
maybe Ms. Harman said, up to award; and then, from there, 
project monitoring and implementation would be handled at the 
regional level. But I think that the regions do play a valuable 
role in the grants process.
    Mr. Cleaver. Thank you.
    Ms. Harman.
    Ms. Harman. Sure. With regard to pros--and we are looking 
at the grant programs directorate as a whole?
    Mr. Cleaver. Yes.
    Ms. Harman. I think the pro that we have right now going 
for us, we have a lot of money to manage. The people that get 
that out the door are the people that currently work there. 
And, honestly, I don't know how they do what they do with the 
resources that we have right now, being down as many folks as 
we are and working with some of the multiple systems that we 
are working with until we can streamline that. We have some 
very dedicated staff that truly believe in the FEMA mission and 
have been there through evolving structures, through mergers, 
and different management styles--and I mentioned earlier, 
styles that I don't particularly care for that is very top 
down. We have folks there that believe in the mission, want to 
learn, want to contribute, and want to be empowered. That is 
going to get us where we need to be in the end.
    As far as the con, the overall grant process is a very 
arduous process to get grant guidance together, to have 
applications and systems and just getting everything out the 
door. There is not a whole lot we can do about it, but we can 
streamline where we can. But the system is the system. So it is 
not the best system to work in, but we do with it the best that 
we can right now.
    Ms. Richardson. I just have a few last questions.
    Ms. Harman, it has been explained, and I went before the 
Budget Committee regarding Department of Homeland Security. I, 
like many Members of this committee, expressed our concern with 
the reduction in fire grants.
    I also want to note for the record my concern of the safe 
port as well. It originally had $400 million that was 
authorized. However, for the full year 2011, it was only 
requested $300 million. Some of those same problems--and I 
won't go through them again--that we discussed about the fire 
grants are equally with the ports. I and many people view that, 
other than the airports, it is probably one of our greatest 
vulnerabilities. So to again look at cutting some of these key 
areas where we have had great success, where we have managed to 
maintain and avoid a disaster, to not see that reflective in 
terms of a budget priority is very concerning. So I wanted to 
say that for the record.
    The second thing that I wanted to mention had to do with 
Ms. Richards' report where she talks about some of the barriers 
that the regions and stakeholders are finding--legislative 
barriers, organizational barriers, and State-level barriers to 
coordination. A couple of the recommendations that she provides 
is document-specific agency roles and responsibilities for 
cross-program coordination of grant application and review 
processes and ensure internal DHS coordination is in place. 
This may include establishing memorandums of agreements if 
roles are outside of FEMA. Have you considered that as of yet?
    Ms. Harman. Yes, and we are actually under way with some of 
that, particularly with TSA, who is our partner with the 
transit, as well as Coast Guard. We even had an offer from the 
Coast Guard to provide us reservists to help us with our 
monitoring right now while our staffing levels are low, and we 
are working up an interagency agreement with them right now.
    So, yes, I have directed not only TSA to be done quickly 
but the port and then any other partners where FEMA takes the 
lead on most of the grant programs, but we do require 
partnerships and relationships with subject matter experts. So 
I do intend to establish MOUs with all of them.
    Ms. Richardson. Okay. My final question, Ms. Harman, I have 
said a couple times now in hearings, and every time when I say 
it people are always somewhat surprised, but with you being 
new, I think it is important to say again, and that is the 
whole thing with COG, continuity of government.
    When I was on the city council for 6 years, in the State 
legislature for 6 months, and now in Congress, no one--and I 
will repeat even to this day even though I have said it 
publicly at least three times--no one has ever said to me, if 
something happens, where do I go and what do I do? No one has 
said that. So one of the other parts of importance within your 
jurisdiction is the continuity of government. When we look at 
the problems of what happened with Katrina, all we have to do 
is turn on the news right now and look at the oil spill. You've 
got Governors who everyone is pointing different fingers.
    Where does COG fit in your grant process, and has there 
been a priority to understand that beyond it just being on 
paper that there is real work that must be done from the 
Federal, State, and local level to get governments all working 
correctly in the event of a disaster?
    I had the same situation in American Samoa when we had the 
earthquake and the subsequent tsunami, where you have a 
Governor who was supposed to do one thing, and the Governor may 
not necessarily be the right person to make all of those 
decisions. So what are we doing to address COG in your grants 
that you have so far?
    Ms. Harman. Sure. Continuity of government clearly is very 
important. We have a lot of grants to get out of the door. 
There might be emergencies that pop up and catastrophic events 
that pop up in a variety of different regions at different 
times; and it is important that, although there are emergencies 
and there are things to do there, that we are still getting 
grants out the door to build capabilities and preparedness in 
other areas of the country. We can't stop to do that. That is 
very, very important.
    COG was one of the first things I was introduced to when I 
came to FEMA 3 months ago. We had an exercise at Mount Weather 
that executed some of that, where we tested that; and I believe 
you had an opportunity to visit us at that time. So it is at 
the top of the list of things to do. Our COG program is in the 
process within the grant program directorate. We are currently 
being updated with new personnel, names, and things like that. 
There has also been some training that has occurred as well.
    Ms. Richardson. But where specifically in the grants that 
are available would a local government or a State be able to 
utilize funding for COG development?
    Ms. Harman. I believe COG development can be utilized under 
the State Homeland Security program, the UASI program. Of 
course, we have EMPG, which is providing emergency managers out 
there to plan for things like this. Of the 50-some different 
programs, I am sure there are a variety of others as well, but 
those would be the main.
    Ms. Richardson. If you could provide that back to the 
committee, what your recommendations would be, because that is 
an area that I plan on working on.
    Ms. Harman. Sure, will do.
    Ms. Richardson. Mr. Cleaver, any further questions?
    Mr. Rogers.
    All right. I thank the witnesses for their valuable 
testimony and the Members for their questions. The Members of 
the subcommittee may have additional questions for the 
witnesses; and we will ask you to respond in a timely fashion, 
preferably in less than 2 weeks, in writing to those questions.
    Hearing no further business, the hearing is adjourned.
    [Whereupon, at 12:00 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

Questions From Chairwoman Laura Richardson of California for Elizabeth 
                               M. Harman
    Question 1. You indicated in response to a question that the Grant 
Programs Directorate is forming a working group to evaluate which grant 
functions to shift from FEMA headquarters to the ten regions. What is 
FEMA's timetable for receiving, reviewing, and acting upon the 
recommendations made by the working group?
    Answer. The working group met at the beginning of August and 
provided recommendations to GPD leadership. FEMA leadership approval is 
expected by the end of September. Once FEMA leadership approval is 
obtained, an implementation plan will be developed during early fiscal 
year 2011.
    Question 2. In December 2009, Deputy Administrator Manning told the 
committee that FEMA, in coordination with other DHS components, was re-
evaluating the risk formula that informs homeland security grant 
allocations. What is the status of that review? Do you anticipate any 
changes to the risk formula for the fiscal year 2011 grant cycle?
    Answer. FEMA has been reviewing and evaluating the risk formula 
that informs homeland security grant allocations in coordination with 
the DHS Office of Intelligence and Analysis, Office of Infrastructure 
Protection, and the Risk Management Division. At this time no decisions 
have been made regarding changes to the risk formula for fiscal year 
2011 grant cycle.
    Question 3. In September 2009, FEMA announced that it was extending 
the Environmental and Historic Preservation (EHP) review process to the 
Homeland Security Grant Program (HSGP). In practice, this means that 
State and local grantees must complete time-consuming EHP reviews for 
all of their grant projects, even if they will have no adverse impact 
on the environment. The committee understands that FEMA has drafted a 
rule to exclude the majority of HSGP-supported grant projects from EHP 
reviews. When will FEMA finalize this categorical exclusion?
    Answer. GPD's Grant Development and Administration Division (GD&A) 
has recently finalized the GPD Programmatic Environmental Assessment 
(PEA), which has resulted in a Finding of No Significant Impact (FONSI) 
for certain grant activities under all Programs administered by GD&A. 
The FONSI will reduce the number of projects that require an 
information submittal for an EHP review. The analysis in the PEA 
document will serve as the EHP documentation for those certain types of 
projects; therefore grantees will not need to provide further EHP 
documentation for those projects. GDA has developed an EHP review 
process to streamline the review period for all projects not covered by 
the PEA. These projects will be triaged to determine whether an 
environmental assessment is required. If a further review reveals that 
a project can be categorically excluded, that action is quickly taken 
so that funds for the project can be released. As is current policy, 
projects requiring an environmental assessment will be sent to the 
applicable FEMA Region for action. The GDA EHP program continues to 
provide outreach and education to grantees to explain the EHP process 
and regularly receives feedback on ways to make it as grantee-friendly 
as possible.
    Question 4. Please describe which FEMA grants support continuity of 
government operations and how that support is generally carried out at 
the State and local level with FEMA's grants.
    Answer. Several FEMA/GPD preparedness grant programs, including the 
Homeland Security Grant Program (HSGP) and its associated sub-programs 
support continuity of government (COG) operations. COG activities are 
also supported under the Emergency Management Performance Grants 
(EMPG). Activities undertaken at the State and local level utilizing 
HSGP and EMPG funding include developing/refining COG plans and 
procedures, executing tabletop and functional exercises to test COG 
plans, providing communications equipment to essential Government 
personnel, renovating facilities to act as alternate Emergency 
Operations Centers (EOC), and, in the case of HSGP, target hardening of 
critical Government infrastructure.
    Question 5. Please provide the current number of vacant permanent 
full-time positions within the Grants Program Directorate at 
headquarters and discuss how many full-time filled and vacant positions 
will be moved to the Regions.
    Answer. The Grant Programs Directorate currently has 34 vacant 
permanent full-time positions. The vacant positions have all been 
advertised through USAJobs, lists of qualified applicants have been 
compiled and reviewed and interviews with candidates have been or are 
being scheduled. As of July 2, 13 job offers have been made and 
accepted. These individuals are all currently in the FEMA security 
clearance process. GPD envisions this first round to on-board no later 
than pay period 18 (August 29, 2010).
    GPD has supported the enhancement of FEMA's regions by transferring 
six vacant positions to regions. As part of enhancing the FEMA regions, 
FEMA has also convened a working group to determine which portions of 
the grant life cycle will be moved to the regions, which will remain at 
headquarters and which will be shared with the regional offices. This 
working group is expected to provide recommendations to FEMA leadership 
by the end of September. FEMA leadership approval is expected by the 
end of September. Once FEMA leadership approval is obtained, an 
implementation plan including personnel resources will be developed 
during early fiscal year 2011.
    Question 6. At the hearing, Chief Patalano, Ms. Tierney, and Ms. 
Richards, offered several recommendations to FEMA and Congress for 
improving the management of the homeland security grant program, 
including:
    Lifting the statutory 3 percent limit on the amount of grant 
funding a recipient can retain for management and administrative 
purposes to 5 percent;
    Coordinating the development of State and local grant guidance 
between the Department of Homeland Security, Department of Justice, and 
the Department of Health and Human Services in order to ensure the 
Federal preparedness grants are not duplicative or working at cross-
purposes;
    Developing a more manageable process for completing Environmental 
and Historic Preservation reviews for preparedness and critical 
infrastructure grant programs;
    Providing more flexibility to grantees to use grant funds to 
support multi-year homeland security projects;
    Permitting grantees to use a greater share of their homeland 
security grants for personnel; and
    Developing memorandums of understanding that describe the roles and 
responsibilities of each DHS-component in the grant-making process.
    What are FEMA's views on these recommendations and what steps has 
FEMA taken, if any, to implement these recommendations?
    Answer. Below is an update on the steps that FEMA has taken to 
implement the recommendations that were offered during the hearing:
    1. Lifting the statutory 3 percent limit on the amount of grant 
        funding a recipient can retain for management and 
        administrative purposes to 5 percent.--This change was adopted 
        in many of the GPD grant programs for fiscal year 2010. Almost 
        all of the fiscal year 2010 preparedness grant program Guidance 
        and Application kits include a provision that allows for 
        grantees and their sub-grantees to utilize up to 5 percent of 
        their award for management and administrative (M01&A) costs. 
        These programs include: HSGP, NSGP, RCPGP, DLSGP, THSGP, IECGP, 
        EOC, TSGP, IPR, FRSGP, and IBSGP. Others allow for 5 percent 
        M&A at the grantee level and 3 percent at the sub-grantee 
        level. These include: EMPG and PSGP. BZPP allows for 5% M&A at 
        the grantee level.
    2. Coordinating the development of State and local grant guidance 
        between the Department of Homeland Security, Department of 
        Justice, and the Department of Health and Human Services in 
        order to ensure the Federal preparedness grants are not 
        duplicative or working at cross-purposes.--DHS and HHS co-chair 
        a grants coordinating committee representing 20 agency offices 
        with health and medical preparedness grant programs. This 
        committee meets monthly by conference call and twice yearly in 
        person. Committee activities can lead to identifying and 
        avoiding overlaps in funding, to assisting grantees, and to 
        leveraging and coordinating our various programs. 
        Representatives from FEMA have also started meeting regularly 
        with DOJ to coordinate the law enforcements aspect of programs 
        such as the Homeland Security Grant Program (HSGP) and 
        Community Oriented Policing Services (COPS) Grants & Office of 
        Justice Program's Edward Byrne Memorial Justice Assistance 
        Grant Program.
    3. Developing a more manageable process for completing 
        Environmental and Historic Preservation reviews for 
        preparedness and critical infrastructure grant programs.--GPD's 
        Grant Development and Administration Division (GD&A) has 
        recently finalized the GPD Programmatic Environmental 
        Assessment (PEA), which has resulted in a Finding of No 
        Significant Impact (FONSI) for certain grant activities under 
        all Programs administered by GD&A. The FONSI will reduce the 
        number of projects that require an information submittal for an 
        EHP review. The analysis in the PEA document will serve as the 
        EHP documentation for those certain types of projects; 
        therefore grantees will not need to provide further EHP 
        documentation for those projects. GDA has developed an EHP 
        review process to streamline the review period for all projects 
        not covered by the PEA, These projects will be triaged to 
        determine whether an environmental assessment is required. If a 
        further review reveals that a project can be categorically 
        excluded, that action is quickly taken so that funds for the 
        project can be released. As is current policy, projects 
        requiring an environmental assessment will be sent to the 
        applicable FEMA Region for action. The GDA EHP program 
        continues to provide outreach and education to grantees to 
        explain the EHP process and regularly receives feedback on ways 
        to make it as grantee-friendly as possible.
    4. Providing more flexibility to grantees to use grant funds to 
        support multi-year homeland security projects.--FEMA/GPD 
        encourages the use of preparedness grant funding to support 
        multi-year homeland security projects, and program funding is 
        allowable over multiple years in most cases.
    5. Permitting grantees to use a greater share of their homeland 
        security grants for personnel.--The Personnel Reimbursement for 
        Intelligence Cooperation and Enhancement (PRICE) of Homeland 
        Security Act (Public Law 110-412) directed FEMA/GPD to allow 
        for up to 50 percent of grant funding to be used for personnel 
        costs. FEMA/GPD responded by including this provision in all 
        grant guidance kits that include personnel costs as one of the 
        allowable costs.
    6. Memorandums of understanding that describe the roles and 
        responsibilities of each DHS-component in the grant-making 
        process.--MOA's are in place between FEMA-GPD and the Office of 
        Infrastructure Protection for the Buffer Zone Protection 
        Program and FEMA-GPD and Office of Environmental and Historical 
        Preservation to coordinate the implementation of requirements 
        under the National Environmental Policy Act. Further, an MOU 
        between FEMA GPD and DHS's Screening Coordination Office is 
        being considered for the REAL ID and the Driver's License 
        Security Grant Programs. The MOA's detail the roles and 
        responsibilities of the various offices to maintain effective 
        communication and collaboration for complete and successful 
        development and implementation of the various grant programs. 
        Under the Agreements, FEMA-GPD retains its primary 
        responsibility for grant program development and 
        administration, and the other offices retain their primary 
        responsibility for subject matter expertise, policy 
        development, program implementation and strategic oversight. We 
        are in the process of developing MOA's with other 
        organizations.
 Questions From Chairwoman Laura Richardson of California for Anne L. 
                                Richards
    Question 1. The 9/11 Act directs the Inspector General to annually 
complete audits of individual States' management of the Homeland 
Security Grant Program. Has the Office of the Inspector General been 
able to identify any common challenges with grant management that 
multiple States are struggling with, particularly the process for 
drawing down funds? If so, what are your recommendations to FEMA for 
addressing those challenges? Did rural States or States with large 
populations of volunteer first responders encounter different or more 
complex challenges managing grants then States with more urban areas or 
paid professionals?
    Answer. The 12 States and 1 urban area we audited in 2008 and 2009 
generally did an efficient and effective job of administering the grant 
management program requirements, distributing grant funds, and ensuring 
that all of the available funds were used. However, we identified 
common challenges and made recommendations to improve grants management 
functions, with most States facing challenges in controls over 
equipment and property, monitoring and oversight activities, and 
planning activities such as establishing measurable program goals and 
objectives. Other more localized challenges included questioned costs, 
complying with Federal procurement practices, and financial planning, 
reporting, and support.
    Our completed audits did not identify challenges regarding the 
drawdown of funds, or any differences in the complexity of challenges 
between rural States and States with more urban areas. Challenges and 
recommendations included:
    Equipment and Property.--Our audit reports identified equipment and 
property weaknesses and included recommendations to strengthen property 
controls within the homeland security grant management programs. Some 
examples include:
  <bullet> Unauthorized expenditures were charged to Federal funds 
        because the agency did not sufficiently review the acquired 
        items to ensure compliance with grant terms.
  <bullet> The State did not establish policies for controlling 
        centrally purchased equipment distributed to local 
        jurisdictions, resulting in a lack of equipment accountability.
  <bullet> The State did not ensure that subgrantees established and 
        maintained effective control and accountability systems.
    Monitoring and Oversight Practices.--Monitoring and oversight 
weaknesses were cited in most State audit reports, resulting in 
recommendations to improve the States' monitoring and oversight of 
grant programs and processes. The reports noted that several States 
have implemented proactive measures to improve their monitoring and 
oversight processes, including developing policies, procedures, and 
program monitoring guidance; performing equipment reviews; and 
preparing a formal subgrantee guide for site monitoring efforts. Noted 
weaknesses included:
  <bullet> States' emergency management organizational structures did 
        not change with the addition of new homeland security grant 
        responsibilities, resulting in monitoring and oversight 
        weaknesses.
  <bullet> Lack of written plans to monitor financial or programmatic 
        performance against strategic goals, and therefore had 
        insufficient assurance that program goals were being achieved 
        or that grant funds were being properly expended.
  <bullet> Infrequent monitoring and site visits to subgrantees.
  <bullet> Monitoring generally did not cover programmatic issues, only 
        financial issues.
    Measurable Program Goals and Objectives.--A common challenge was 
for States to establish specific, measurable program goals and 
objectives linking the State's strategy and subgrantees' use of grant 
funds to acquire equipment, training, and exercises. Our audit reports 
included recommendations to improve grant management procedures, 
demonstrate progress in achieving goals and objectives, and measure 
improvements in local jurisdictions' capabilities in terms of 
equipment, training, and exercises. Without measurable goals and 
objectives, the States: (1) Could not adequately evaluate the relative 
impacts that grant funds had on first responders' ability to respond to 
terrorist attacks or natural disasters, (2) lacked important tools for 
allocating grant funds and providing oversight to subgrantees, and (3) 
were unable to assess first responder capabilities or justify continued 
grants.
    Questioned Costs.--Our audit reports identified over $3.5 million 
in questioned costs, and made recommendations to resolve or recover the 
expenditures. Examples included:
  <bullet> Ineligible costs (unauthorized equipment, unauthorized 
        purpose).
  <bullet> Equipment used for unauthorized purposes, or not being 
        utilized or maintained as intended.
  <bullet> Unapproved transfers and commingling of grant funds.
  <bullet> Accrued interest earned on grant funds not remitted to the 
        Federal Government.
  <bullet> Lack of supporting documentation.
    Federal Procurement Practices.--States did not ensure that Federal 
procurement regulations were followed at the subgrantee level, 
resulting in recommendations to establish and implement procedures to 
ensure Federal requirements are followed by grant recipients. Specific 
examples include:
  <bullet> Required cost analyses not performed for noncompetitive 
        procurements contracts.
  <bullet> State not notified of noncompetitive procurements, as 
        required prior to awarding the contracts.
  <bullet> Contract awarded to the firm that developed the 
        specifications for the contract, creating an organizational 
        conflict of interest and undermining full and open competition.
    Financial Planning, Reporting, and Support.--The State audit 
reports identified areas where financial planning and reporting 
controls were not properly implemented. States have already taken 
actions to implement the recommendations and improve their processes.
    Question 2. Since the inception of the Homeland Security Grant 
Program (HSGP) following 9/11, grantees have been challenged to quickly 
spend--or ``drawdown''--their grant awards. What steps could FEMA and 
States take to expend their HSGP grant awards in a more expeditious 
manner?
    Answer. While FEMA has taken steps to permit States to expend their 
Homeland Security Grant Program funds more expeditiously, other actions 
are needed to streamline the grant review and approval process in order 
for grantees and subgrantees to receive their funds in a timely manner.
    In 2005, FEMA incorporated the application process of four 
complementary grant programs into the Homeland Security Grant Program:
  <bullet> State Homeland Security Program;
  <bullet> Urban Areas Security Initiative;
  <bullet> Citizen Corps Program;
  <bullet> Metropolitan Medical Response System.
    In 2010, the Operation Stonegarden program was added to the 
Homeland Security Grant Program. While the grant programs retained 
their distinct and separate identities, the Homeland Security Grant 
Program provides a single application kit and program guidance to 
facilitate coordination and management of State and local homeland 
security funding. This also helps ensure that available funding is 
leveraged for maximum impact.
    Our March 2010 report titled ``Efficacy of DHS Grant Programs,'' 
identified areas where improvements are needed to improve the 
effectiveness and efficiency of all of FEMA's preparedness grant 
programs, specifically involving application timelines, application 
submission requirements, and application review panels.
    Existing Grant Application Timelines Are Not Arranged Optimally.--
Grant timelines do not promote the most efficient application 
preparation and review because they are not arranged in the most 
optimal sequence. In many cases, the timelines are legislatively 
established and do not allow States the opportunity to logically 
develop investment justifications that address overarching needs or 
define target capabilities while simultaneously focusing on more 
narrowly focused programs. Although the scopes of these programs may 
overlap, we did not identify a consistent pattern in the current 
sequence that would allow States to develop investment justifications 
for similar programs or related projects in a logical and efficient 
order.
    Inconsistent or Redundant Grant Application Requirements Preclude 
Efficient Planning.--FEMA issues separate annual guidance to outline 
the application processes and requirements for each grant program which 
creates burdensome requirements on both FEMA and grantees as the 
requirements differ across grant programs. Requirements in grant 
guidance vary across programs, regardless of the similarities of the 
grant program, making it difficult for States to have a streamlined 
planning process that is consistent across all grant programs. Grant 
programs have different investment justification templates as part of 
the application process. This requires applicants to prepare investment 
justifications or documents with unique information for each program 
regardless of the similarities of the proposed funding activities. 
These varied templates and program documents may provide consistency 
for panels reviewing proposed project proposals for the individual 
grant programs, but present an administrative burden for grant 
applicants who must prepare similar information in different formats.
    Review Panels Differ Across Grant Programs.--Grant programs have 
separate review processes to evaluate funding requests for each grant 
program, which requires FEMA to convene multiple review panels to 
evaluate applications and investment justifications. For all programs, 
FEMA verifies the applicant's compliance with administrative and 
eligibility criteria identified in each grant program's application 
kit. FEMA then sends the eligible applications through an investment 
justification review process to evaluate the merits of proposed 
investments against grant guidance criteria. However, FEMA uses various 
types of reviews to evaluate proposed investments, depending on the 
grant program, and include Federal, State, and local government 
personnel; emergency responders; and members of National associations 
on the review panels. These numerous panels create additional work for 
FEMA to request review panel members from Federal, State, and local 
organizations, depending on the grant program. FEMA must also train the 
numerous panels, provide review materials, oversee the panels, and 
compile panel results. Consolidating panels where grant programs have 
similar purposes or activities would provide a more efficient use of 
Federal, State, and local resources.

                                 <all>

</pre></body></html>
